<html>
<title> - RED RIVER VALLEY WATER NEEDS</title>
<body><pre>[Senate Hearing 107-863]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-863
 
                      RED RIVER VALLEY WATER NEEDS
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

          TO RECEIVE TESTIMONY ON RED RIVER VALLEY WATER NEEDS

                               __________

                            DECEMBER 9, 2002

                               FARGO, ND


                       Printed for the use of the
               Committee on Energy and Natural Resources









                           U.S. GOVERNMENT PRINTING OFFICE
85-416                             WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        DON NICKLES, Oklahoma
BOB GRAHAM, Florida                  LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            CRAIG THOMAS, Wyoming
MARY L. LANDRIEU, Louisiana          RICHARD C. SHELBY, Alabama
EVAN BAYH, Indiana                   CONRAD BURNS, Montana
DIANNE FEINSTEIN, California         JON KYL, Arizona
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
MARIA CANTWELL, Washington           GORDON SMITH, Oregon
THOMAS R. CARPER, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                BYRON H. DORGAN, North Dakota, Chairman
BOB GRAHAM, Florida                  GORDON SMITH, Oregon
RON WYDEN, Oregon                    JON KYL, Arizona
TIM JOHNSON, South Dakota            LARRY E. CRAIG, Idaho
DIANNE FEINSTEIN, California         BEN NIGHTHORSE CAMPBELL, Colorado
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama
THOMAS R. CARPER, Delaware           CHUCK HAGEL, Nebraska

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                Patty Beneke, Democratic Senior Counsel
                        Colleen Deegan, Counsel







                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bach, Maryanne, Great Plains Regional Director, U.S. Bureau of 
  Reclamation....................................................     3
Brown, Michael R., Mayor, City of Grand Forks, ND................     8
Dorgan, Hon. Byron L., U.S. Senator from North Dakota............     1
Dwyer, Michael, Executive Vice President, North Dakota Water 
  Users Association..............................................    30
Frink, Dale, State Engineer, North Dakota Water Commission.......     7
Furness, Bruce W., Mayor, Fargo, ND..............................    10
Jamison, Warren L., Manager, Garrison Diversion Conservancy 
  District.......................................................    20
Thompson, Genevieve, Vice President and Executive Director, 
  Audubon's State Office for the Dakotas.........................    23

                                APPENDIX

Additional material submitted for the record.....................    39


                      RED RIVER VALLEY WATER NEEDS

                              ----------                              


                        MONDAY, DECEMBER 9, 2002

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                         Fargo, ND.
    The subcommittee met, pursuant to notice, at 7 p.m. at the 
American Legion Hall, 505 Third Avenue North, Fargo, North 
Dakota, Hon. Byron L. Dorgan presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. I will introduce Patty Beneke, professional 
staff member of the Senate Energy Committee, who has joined us 
this evening in Fargo. Jonathan Black has also joined us. 
Jonathan is right over here. And I'm going to mention to you 
the witness list this evening as we proceed.
    We are going to hear first from the Bureau of Reclamation, 
Dr. Maryanne Bach. Then we are going to hear from the State 
Water Engineer for North Dakota, Mr. Dale Frink. Then the 
Honorable Mike Brown, mayor of the city of Grand Forks. The 
Honorable Bruce Furness, the mayor of Fargo.
    The second panel will be Mr. Warren Jamison, manager of the 
Garrison Conservancy District. Then Genevieve Thompson, vice 
president and executive director of the Audubon Society. And 
then Mike Dwyer, executive director of the North Dakota Water 
Users Association.
    I would also ask anyone else who is present who wishes to 
submit statements, but not appear as a witness tonight, if you 
wish to submit statements, we will keep the record of this 
hearing open and will accept statements as part of the 
permanent hearing record for two weeks following this hearing.
    Let me begin. I will give a very brief statement because I 
want to get on with the discussion of what's happening on this 
issue. There aren't many subjects more important to our State 
than water. You can't have opportunity, development, economic 
growth without water policy that assures a supply of water. We 
have plenty of water issues in our State, and plenty of 
problems. On the other side of our State, we have a problem 
with the Missouri River and the master manual of how the 
Missouri River is managed. The Corps of Engineers manages the 
Missouri River in a way that, in my judgment, unduly benefits 
downstream States and cheats the upstream States.
    For 12 years the Corps of Engineers has been rewriting a 
master manual. For 12 years. Now, you know, we can be patient, 
but patience ought not have to extend to 12 years.
    I met with the general just last week from the Corps of 
Engineers on this subject once again. It's not clear to me when 
they're going to release the preferred alternative on the 
Missouri River master manual. But this State has every right to 
be completely out of patience. They are supporting a minnow of 
a barge industry down south. We've got a whale of recreation 
and fishing and tourism industry up north. And the fact is we 
are shortchanged in a way that's terribly unfair as they manage 
this river. We are going to keep putting pressure on them, 
dealing with that problem on the Missouri side of this State. 
But the Missouri River side is important to the Red River as 
well because in the Dakota Water Resources Act we included a 
provision that calls for a $200 million authorization, and a 
process by which water could be delivered to eastern North 
Dakota if a study determines that's what is necessary in order 
to assure water supply to eastern North Dakota. First and 
foremost, there should be studies to determine how much water 
is needed in eastern North Dakota, and, second, how you satisfy 
that need. That's the two-step process.
    This is not idle thinking about our water issues. Some in 
this room, I suspect, have seen the Red River run dry. Anybody 
here seen the Red River dry? Yes. And I've seen pictures. I 
wasn't here then, but those of you who have seen it understand 
that we can't be guaranteed there is always going to be water 
in that Red River. And if we don't have water in that Red 
River, economic growth and opportunity is gone. You cannot 
support the kind of cities we are building along the Red River 
without an assured supply of water.
    There is a two-step process in this piece of legislation we 
passed a couple years ago. One, identify the needs for water in 
the Red River Valley, and then, two, identify how we satisfy 
those needs.
    Now the first step was to have been done by the Bureau of 
Reclamation in December 2001. That was to have been a draft 
environmental impact statement. December 2001. We are now told 
by the Bureau of Reclamation that it will be done in December 
2005. It's been delayed 4 years. It's not acceptable to me, nor 
should it be acceptable to anybody in eastern North Dakota.
    And what I want to do tonight is find out why. Why the 
delays. What is happening is the people at the Federal level 
say, well, sure, we have had some problems that have resulted 
in some delays, but fact is, the State of North Dakota and the 
Conservancy District, it's taken them some while to reach 
agreement on various things. I don't know where all this 
stands. All I know is this: This State shouldn't have to wait 
year after year after year after year to get its water problems 
solved. It's not fair. It's not fair when the Corp of Engineers 
does it, it's not fair when the Bureau of Reclamation does it. 
We need to find people to get together and make decisions and 
move ahead. So that's the purpose of this hearing, and I very 
much appreciate all of your interest. As I said when I started, 
water is very important. You can't do the things we want to do 
in this State today and for its future if you don't have 
assured and adequate supply of water. That's what this hearing 
is about.
    Let me, with that statement, invite the first witness panel 
to come forward. Dr. Maryanne Bach from the U.S. Bureau of 
Reclamation. Dr. Dale--Mr. Dale Frink, excuse me, State 
Engineer. Dale, I keep making you a doctor here.
    Mr. Frink. That would be fine.
    Senator Dorgan. Be an easy way to get one, if somebody 
would say it, right?
    Mr. Frink. That's right.
    Senator Dorgan. The Honorable Michael Brown, mayor of the 
city of Grand Forks. The Honorable Bruce Furness, mayor of the 
city of Fargo.
    I have also been told that State Agriculture Commissioner 
Roger Johnson is with us, who works on the Industrial 
Commission and has his hand deep in water policy in North 
Dakota. Roger, thank you for being with us as well.
    Maryanne Bach, thank you for joining us tonight. You are 
presenting testimony on behalf of the Bureau of Reclamation. 
Why don't you pull the microphone as close to you as is 
possible and then why don't you proceed with what I have asked 
everyone to summarize. And we will put the entire statement in 
the record.

           STATEMENT OF MARYANNE BACH, GREAT PLAINS 
         REGIONAL DIRECTOR, U.S. BUREAU OF RECLAMATION

    Dr. Bach. Mr. Chairman, I ask that my complete testimony as 
presented to the committee could be entered into the record 
and, I will abbreviate from that.
    I appreciate the opportunity to be here this evening to 
testify on behalf of the implementation of the Dakotas' Water 
Resources Act, and particularly our activities with regard to 
the Red River Valley Water Needs study and CIS.
    I would like to reflect back on the relationship and the 
activity of the Bureau of Reclamation and the State of North 
Dakota prior to the passage of the Dakotas Water Resources Act.
    We did enter into a memorandum of agreement in good faith 
without anticipation as to whether the statute would pass 
Congress or not. And we did use the authority that we believe 
existed under the 1986 Reformulation Act and began our 
activities 6 months prior to the passage of the Dakota Water 
Resources Act.
    When the act did pass, Mr. Chairman, we continued our 
activity under that original MOU. We were confronted, 
particularly the Bureau was confronted with several allegations 
of illegally interpreting the Dakotas Water Resources Act and 
we took a pause. We discussed it with the State and looked at 
the provision of the DWRA as it was passed and felt there was a 
need in order to protect the process and integrity of the 
process that we didn't have to renegotiate the MOU.
    I appreciate the effort of Dale Frink on behalf of State 
and the district in negotiating a new MOU, and I believe we all 
went forward and did that on the behalf of the citizens of the 
State of North Dakota.
    In that same time frame, Mr. Chairman, the Bureau did 
continue with a plan of studies. We did also write all of the 
necessary contracts that would be necessary to get the study 
underway.
    The study that is instructive for the Secretary of the 
Interior to produce under the DWRA will be 60 percent 
contracted out. The 40 percent that will be handled by the 
Bureau of Reclamation will be also handled by multiple offices 
in order to reach the utmost efficiency.
    The schedule that you raise, and your concern with the 
schedule, frankly, we share a similar concern for the time it 
takes to analyze these issues.
    I am pleased to say that we did have a notice of intent for 
the EIS which was issued in October, and there were public 
meetings that were held throughout the State, six different 
public meetings that were held at the end of October and early 
November that did raise a number of additional issues. And 
under the NEPA--National Environmental Protection Act--we are 
required to consider those pieces of information that come out 
in public scoping.
    We are using all available information from prior studies. 
You are familiar with Phase I and Phase II of prior studies 
that were conducted under the 1986 act, and that all that 
information that was given is essential and is quite relevant.
    I know there are some other communities that are raising 
the question as to why anything more would need to be studied, 
and yet there are others in basin who do feel that they need 
more information and a better level of details and the costs 
that are associated with it.
    So, what Reclamation is faced with is taking a set of 
studies that are what is called at the appraisal level, and 
taking it to what is called the feasibility study. Feasibility 
level studies provide enough detail that any engineering firm 
who is going to bid for that construction is able to do so, and 
that we have sufficient levels at both the State--sufficient 
information at both the State and Federal levels so that all 
communities know the costs that are involved.
    There were some additional needs that were identified in 
DWRA that were not covered in the Phase I and II reports. 
Specifically, we were instructed under DWRA to identify aquatic 
needs, recreation needs and water conservation measures.
    So, there was a need for a series of meetings for 
supplemental information in regard. It has been raised, and I 
appreciate the points that are brought forward by the mayor of 
Fargo. Bruce and I have talked. I've been working with Mayor 
Furness, for some time. We sit together on the International 
Joint Commission, Red River Valley which--Red River Basin, 
which I co-chair on behalf of the United States. You have 
spoken with me, your staff has spoken to me on numerous 
occasions about the schedule.
    I would like to close my comments, Mr. Chairman, by saying 
that this particular region, Great Plains Region, I operate in 
nine different States, and the severity of water problems are 
not in any way to be minimized. They are of the magnitude that 
require the attention and diligence of every Federal employee 
in our agency. Therefore, I'm committed to sit down with the 
parties and to look at the schedule as we previously agreed to, 
and any and all opportunities that we have to cut back on the 
schedule, I am pleased to do so. I want to do that in an 
informed environment so that those communities who are planning 
for a certain amount of detail. If, in fact, they can operate 
with a different level of detail, then we can make the 
accommodations in the report.
    I want to make sure whoever had expectations, whatever 
communities did have expectations that we can properly meet 
them, but find a way to balance it with the schedule involved.
    I appreciate the opportunity to testify.
    [The prepared statement of Dr. Bach follows:]
 Prepared Statement of Maryanne Bach, Great Plains Regional Director, 
                       U.S. Bureau of Reclamation
    I am Maryanne Bach, Bureau of Reclamation Regional Director for the 
Great Plains Region headquartered in Billings, Montana. I appreciate 
the opportunity to participate in this field hearing on Red River 
Valley water needs.
    The Dakota Water Resources Act of 2000 (DWRA) was signed into law 
on December 21, 2000 as Public Law 106-554. DWRA amended the 1965 
authorization of the Garrison Diversion Unit (Public Law 89-108), the 
1986 Garrison Diversion Unit Reformulation Act (Public Law 99-294), and 
the Reclamation Projects Authorization and Adjustment Act of 1992 
(Public Law 102-575).
    DWRA requires the Secretary of the Interior to conduct a 
comprehensive study of the water quality and quantity needs of the Red 
River Valley in North Dakota and possible options for meeting those 
needs. DWRA further requires that not later than 1 year after the date 
of enactment the Secretary and the State of North Dakota shall jointly 
prepare a draft environmental impact statement concerning all feasible 
options to meet the comprehensive water quality and quantity needs of 
the Red River Valley and the options for meeting those needs, including 
the delivery of Missouri River water to the Red River Valley. Should 
the draft EIS not be completed within 1 year following enactment, DWRA 
requires that the Secretary report to Congress on the status of the EIS 
including an estimated date of completion.
    Reclamation's involvement with a water supply for the Red River 
Valley began with the passage of the Garrison Diversion Unit 
Reformulation Act of 1986. The Reformulation Act authorized a Sheyenne 
River water supply and release feature (including a water treatment 
plant) capable of delivering 100 cubic feet per second of water for the 
cities of Fargo and Grand Forks and surrounding communities.
    In 1993, the North Dakota Water Management Collaborative Process 
was initiated. This process was an effort by a number of stakeholders 
to examine the contemporary water needs of North Dakota, including 
needs in the Red River Valley. Reclamation was assigned the task of 
doing an appraisal level study of both long-term needs in the valley 
and options for meeting those needs. Although the collaborative process 
was terminated in 1994, Reclamation completed the appraisal-level Red 
River Valley studies in 2000.
    As a follow-up to the appraisal studies, in June 2000, Reclamation, 
the North Dakota State Water Commission, and the Garrison Diversion 
Conservancy District signed a Memorandum of Understanding to organize 
and complete more detailed feasibility level studies. While study tasks 
were not undertaken, a management team and two stakeholder teams 
(Technical Team and Study Review Team) were organized and study 
planning was initiated.
    Following passage of DWRA, significant concerns about the decision-
making process, public involvement, and the existing Memorandum of 
Understanding signed in June of 2000 and based on the authority 
provided by the 1986 Reformulation Act, were brought to our attention--
primarily by national environmental organizations. In response to these 
concerns and the new direction provided by DWRA, the decision was made 
to terminate the original MOU and replace it with an agreement which 
would establish North Dakota as a joint lead for preparation of the 
EIS, as required by DWRA.
    The Bureau of Reclamation is diligently working to implement all 
aspects of DWRA in as timely a manner as possible. We are making 
progress on the Red River Valley studies and EIS, although admittedly 
not within the 1-year of enactment time frame established by DWRA. 
During the time that has passed since DWRA was enacted, much of the 
work related to the Red River Valley studies and EIS has been focused 
on defining and negotiating the roles and responsibilities of 
Reclamation and the State of North Dakota in the joint preparation of 
the EIS. This process was further complicated by the necessity of 
having to resolve differences in interpretation of DWRA.
    Since DWRA requires the draft EIS to be prepared jointly with the 
State of North Dakota some deliberation was required on the part of the 
State to determine which agency would act as the lead for the State. 
The State subsequently decided that agency would be the Garrison 
Diversion Conservancy District.
    That decision process was followed by a significant effort to 
negotiate a memorandum of understanding which defined the scope of the 
partnership and the general roles and responsibilities of each party. 
The negotiation centered on differing interpretations of portions of 
the DWRA. The respective roles and responsibilities and overall scope 
of the partnership have now been agreed to and are contained in a 
revised Memorandum of Understanding which was signed on November 6, 
2002, a copy of which is attached to this testimony for the record.*
---------------------------------------------------------------------------
    * The MOU has been retained in subcommittee files.
---------------------------------------------------------------------------
    In addition to the MOU, operating principles have been negotiated 
and documented. These operating principles define the roles and 
responsibilities of each party, as well as the organization and process 
for completing the EIS. Two cooperative agreements are also being 
negotiated with the State, one for general implementation of DWRA, and 
one specifically for the Red River Valley studies and EIS. The 
cooperative agreements will allow Reclamation to transfer funds to the 
State for their participation. These agreements should be ready for 
signature in the very near future.
    Since the draft EIS was not completed within 1 year following 
passage of DWRA, a status report was submitted to Congress by the 
Commissioner of Reclamation on November 22, 2002. The report projects a 
completion date of December 2005.
    The time line for completion of the draft EIS is based in large 
part on requirements in DWRA relating to the comprehensive study of 
water quality and quantity needs of the Red River Valley and options 
for meeting those needs including diverting water from the Missouri 
River to the Red River Valley Basin. That study is to be documented in 
a Needs and Options Report. Since the options developed in the study 
will likely be the alternatives analyzed in the draft EIS, it is 
necessary that the studies be done in advance of, or at least on a 
parallel time frame, with the EIS. Reclamation has prepared detailed 
plans of study and Needs and Options Report operating principles which 
describe the study process, organization, and public involvement 
required by DWRA, including 120-day review of the draft Needs and 
Options report by potentially affected states and federal agencies.
    The plans of study, which were developed with input from the State 
and other stakeholders, are the basis for the timeline. The timeline is 
based upon a number of critical activities that must be completed. 
These are:

  <bullet> update water needs assessment due to unexpected population 
        increases in key municipalities such as Fargo and develop a 
        range of future industrial water needs scenarios;
  <bullet> refine surface water hydrology model to include tributaries 
        to the Red River;
  <bullet> evaluate all reasonable water supply options including 
        additional aquifers in North Dakota and in-basin water sources 
        in Minnesota that were not previously investigated at an 
        appraisal level;
  <bullet> design feasibility-level alternatives to be analyzed in the 
        EIS;
  <bullet> consult with the U.S. Fish and Wildlife Service on the 
        Endangered Species Act;
  <bullet> analyze impacts from the potential transfer of biota, 
        including parasites and pathogens, between the Missouri River 
        Basin and the Hudson Bay Basin and assessment of risks;
  <bullet> study potential cumulative environmental impacts to the 
        Missouri River from past, present, and foreseeable future 
        withdrawals;
  <bullet> conduct the Needs and Options studies in an open and public 
        process that solicits input from gubernatorial designees from 
        states that may be affected and from federal agencies; and
  <bullet> prepare the draft EIS with the State of North Dakota in an 
        open, public process.

    As directed by DWRA, the options for providing a water supply to 
the Red River Valley of North Dakota include many complex and 
controversial analyses and consultations. The issues will involve 
concerns about biota transfer between the Missouri River and Hudson Bay 
basins requiring consultation with the Secretary of State and the 
Administrator of the Environmental Protection Agency; consideration of 
cumulative impacts on the future water supplies in the Missouri River 
Basin; and feasibility level studies for the alternatives considered 
requiring field data collection in an environment with a limited field 
season.
    While the time consuming negotiation and documentation processes 
that I have described may appear to be a lack of progress, we believe 
the clear definition of the partnerships and roles and responsibilities 
that has taken place will ultimately save time in the overall effort 
and result in a better product.
    That concludes my statement. I would be pleased to answer any 
questions you may have.

    Senator Dorgan. Thank you very much. I'm going to continue 
to take the statements of the panel before I ask questions.
    Dale Frink.

           STATEMENT OF DALE FRINK, STATE ENGINEER, 
                 NORTH DAKOTA WATER COMMISSION

    Mr. Frink. Thank you, Mr. Chairman, and members. My name is 
Dale Frink. I'm the North Dakota State Engineer, and I would 
certainly like to thank you for the opportunity to testify on 
this very important issue.
    The Red River Valley study is one of the most important 
aspects of the Dakota Water Resources Act and I think water to 
eastern North Dakota--if eastern North Dakota is going to 
continue to grow and prosper, adequate water supplies are a 
must.
    There is a clear long-term need for improved water supplies 
in the Red River Valley. The Red River has been dry many times 
in the past and experienced very low levels essentially every 
decade this century. This has occurred while its cities have 
grown in their needs, along with their needs for water.
    It has become more and more difficult to find new and 
supplemental water supplies in eastern North Dakota. In 1995, 
the State Water Commission worked very hard to find a water 
supply for the ProGold corn processing plant near Wahpeton. A 
single source of water was not available and, therefore, a plan 
was developed whereby the plant would draw its water from the 
Red River until the flow dropped to a certain level, and at 
that point, you switch to ground water with the hope that the 
Red River returns before we run out of water. While we believe 
this plan works for even the 1930's, what about the future 
plants? And I might add, I do not know if there is--I don't 
think there is adequate water for another ProGold-type plant in 
the southern part of the Red River Valley. I hope we do not 
have to restrict the development through a lack of water, but 
this is a real possibility. This is especially disheartening 
when considering North Dakota ranks last in population growth 
among all States.
    We are also basing most of our current studies on the 
1930's. The period from 1931 to 1936 is unprecedented in the 
last 150 years, where we actually have some written records. 
However, there are many studies available for the Devils Lake 
and other parts of the western United States that suggest 
significantly more severe droughts have occurred. Even the 
current drought that is occurring parts of South Dakota and 
Nebraska is equal or worse than the 1930's.
    Obviously, the Red River Valley study has not started as 
fast as originally envisioned. It has been nearly 2 years since 
DWRA was passed and we are still signing agreements. I 
understand it takes a long time to work through the Federal 
system, but I urge diligence in the future in having agreements 
executed in a timely manner.
    One reason the Red River Valley study is taking longer is 
that it is being closely followed by many organizations and 
entities. It is, therefore, very important the study be 
conducted in an impartial manner and be based on sound, 
scientific analysis. Governor Hoeven also supports this fair 
and open process. The Governor and State Water Commission will 
continue to be involved, and will have regular updates and 
input on the study process.
    In closing, in October, just 2 months ago, we had a series 
of excellent meetings in eastern North Dakota. The need for 
water was evident everywhere. In the end, I am confident that 
this tremendous need will prevail and our dream for adequate 
water supplies for the Red River Valley will become a reality.
    Thank you.
    Senator Dorgan. Mr. Frink, thank you very much.
    Next we'll hear from Mayor Michael Brown, mayor of Grand 
Forks, North Dakota.

             STATEMENT OF MICHAEL R. BROWN, MAYOR, 
                    CITY OF GRAND FORKS, ND

    Mr. Brown. Thank you. Chairman Dorgan and members of the 
subcommittee, I am Grand Forks Mayor Michael R. Brown and on 
behalf of the city of Grand Forks, I want to thank you for the 
opportunity to provide written testimony to the Subcommittee on 
Water and Power regarding Red River Valley water needs. A 
consistent, reliable and affordable water supply is critical to 
the city of Grand Forks and other communities of the Red River 
Valley. Without an adequate supply of water, communities such 
as Grand Forks would not be able to provide required amounts of 
water to its residents, businesses, mainstay institutions and 
agricultural industries that support the livelihood of the 
region.
    I would now like to give a brief oral summation of my 
written testimony. Two things are important to Grand Forks, our 
future. One is the possibility of drought and the other is the 
planning of our water treatment facility.
    Although the memories of Grand Forks residents are marked 
by a drastic flooding event in the midst of what many are 
calling a wet cycle, the Red River Valley is equally 
susceptible to drought conditions. As a result, the city of 
Grand Forks becomes increasingly concerned each year because 
the odds get greater and greater that we will experience an 
extended period of drought without reliable backup or a new 
primary water supply.
    In planning, recognizing these significant water quality 
and quantity challenges, the city of Grand Forks is closely 
monitoring the progress of the study efforts of the Red River 
Valley water supply projects in hopes that the Dakota Water 
Resources Act of 2000 will be able to address our needs. The 
city of Grand Forks stresses that a timely and accelerated 
completion of the schedule of the study for the project would 
greatly assist us in maintaining our time line for planning and 
making important decisions about the future of water supply and 
treatment systems. Therefore, this is critical in our planning 
process.
    Thank you.
    [The prepared statement of Mr. Brown follows:]
            Prepared Statement of Michael R. Brown, Mayor, 
                        City of Grand Forks, ND
    Chairman Dorgan and members of the subcommittee, I am Grand Forks 
Mayor Michael R. Brown and on behalf of the City of Grand Forks, I want 
to thank you for the opportunity to provide written testimony to the 
Subcommittee on Water and Power regarding Red River Valley Water Needs. 
A consistent, reliable and affordable water supply is critical to the 
City of Grand Forks and other communities of the Red River Valley. 
Without an adequate supply of water, communities such as Grand Forks 
would not be able to provide the required amounts of water to its 
residents, businesses, mainstay institutions, and agricultural 
industries that support the livelihood of the region.
    Although the memories of Grand Forks residents are marked by a 
drastic flooding event in the midst of what many are calling a ``wet 
cycle'', the Red River Valley is equally susceptible to drought 
conditions. The relatively flat terrain of the Red River Valley 
drainage basin prohibits the construction of large reservoirs that 
could provide significant amounts of water storage to span even 
moderate periods of drought. As a result, the City of Grand Forks 
becomes increasingly concerned each year because the odds get greater 
and greater that we will experience an extended period of drought 
without a reliable backup or new primary water supply.
    In addition to water quantity issues, we are also concerned about 
water quality. Our existing water sources are difficult to treat due to 
seasonal variations in water quality. Future water quality objectives 
and the possibility of microbial contamination will likely require the 
City of Grand Forks to consider the implementation of advanced water 
treatment technologies. When coupled with the aging condition and 
limited expansion potential of our existing facilities, these factors 
have made it necessary for the City to plan for the construction of an 
entirely new water treatment facility within the upcoming decade.
    Recognizing these significant water quantity and quality 
challenges, the City of Grand Forks is closely monitoring the progress 
of the study efforts for the Red River Valley Water Supply (RRVWS) 
project in hopes that the Dakota Water Resources Act of 2000 will be 
able to address our needs. To date, the study efforts appear to be 
behind schedule and progressing at a painstakingly slow rate. We 
understand this is primarily due to the immense study scope and the 
need to comply with public notification and environmental requirements. 
However, the City of Grand Forks stresses that a timely (i.e., 
accelerated) completion schedule of the study for the RRVWS project 
would greatly assist in maintaining our timeline for planning and 
making important decisions about the future of our water supply and 
treatment systems.
    Additional comments regarding the ongoing study for the RRVWS 
project include:

  <bullet> The study should incorporate a 50-year planning horizon from 
        the date of anticipated study completion to adequately address 
        the projected needs of the Red River Valley rather than a 50-
        year period from the start of the study (2000-2050). Based on a 
        projected study completion date of 2005 coupled with necessary 
        design, bidding and construction activities, the time required 
        to proceed with the project could erode the 50-year planning 
        period by as much as 20 to 30 percent.
  <bullet> The study should comprehensively estimate peak day water 
        demand projections rather than average day demand projections 
        as the basis for the development of alternatives and estimation 
        of total project costs. Careful consideration should be given 
        to proposed water conservation methods as well, given the 
        relatively low rates of water consumption of Red River Valley 
        residents as compared to the national average. Otherwise, the 
        RRVWS project could potentially fail to adequately address the 
        City's actual demands, which typically peak during dry 
        conditions.
  <bullet> The study should account for projected water demands/
        withdrawals for Minnesota communities (East Grand Forks, 
        Moorhead, and Breckenridge) that were addressed in the Phase 
        1A, Phase 1B, and Phase 2 studies. Without including existing 
        and future demands for our sister cities and other appropriate 
        surface water users, the study would ultimately derive an 
        inaccurate representation of actual demands and fall short of 
        meeting its intended objectives.
  <bullet> The quality of water provided to residents, businesses, 
        institutions, and industries is extremely important to the City 
        of Grand Forks. Therefore, an improvement in water quality from 
        that of its existing supply would factor into the City's 
        decision to commit to a significant financial investment in the 
        RRVWS project.
  <bullet> The City of Grand Forks understands the potential 
        environmental impacts of transferring water from one drainage 
        basin to another. In order to meet our water quantity and 
        quality desires, however, realistic risk assessments, combined 
        with the prudent selection of water supply and treatment 
        alternatives, should be able to satisfy reasonable concerns 
        expressed by individuals involved in the study process.
  <bullet> The study should include a thorough evaluation of 
        alternatives via the utilization of justifiable screening 
        criteria to ensure that the recommended alternative is feasible 
        and practical.

    Thank you, again, for this opportunity and for the opportunity to 
provide an oral summation of the written testimony included in this 
letter at the December 9, 2002 field hearing. We greatly appreciate 
your support and all your hard work in focusing on the water needs of 
the Red River Valley.

    Senator Dorgan. Mayor, thank you very much.
    Next we will hear from mayor Bruce Furness, mayor of Fargo.

        STATEMENT OF BRUCE W. FURNESS, MAYOR, FARGO, ND

    Mr. Furness. Mr. Chairman, thank you for this opportunity 
to testify once again on water issues in the Valley.
    My remarks are about the same as I used when we testified 
before the Dakota Water Resources Act a couple years ago and 
ask for them to be included in the reports.
    I will summarize as best I can those remarks.
    My favorite quote about water is from Benjamin Franklin, 
``When the well is dry, we know the worth of water.'' Actually, 
that's my second-favorite quote. My favorite quote is from Mark 
Twain. He says, ``Whiskey's for drinking, water is for fighting 
over.'' And what we need to do is do a little fighting over 
water, I think. But getting back to Ben Franklin, ``When the 
well is dry, we know the worth of water.'' Well, we don't want 
to wait in North Dakota until the well is dry. We try to be 
proactive in the North Dakota. We've worked with the North 
Dakota Water Coalition, we've worked with the congressional 
delegation, we've worked with the State to try to get water to 
eastern North Dakota. Eastern North Dakota contains--the 
counties along eastern North Dakota contain 40 percent of the 
population of the entire State, so we view this as a high-
growth area, high-density area of population.
    Our concern about water is best summarized by an 
introductory paragraph of a report by Black & Veatch, who were 
the consultants on our new water purification plants. They 
said, ``The city of Fargo has rights to two water sources for 
treatment and subsequent supply to its citizens for potable 
use, the Red River to the North and the Sheyenne River. 
Unfortunately, both sources are of poor quality and, even taken 
together, they do not offer a reliable quantity of water to 
meet Fargo's present and certainly future water needs. The 
diversion of Missouri River water to Fargo by way of Garrison 
Dam would provide a long-term lifeline for the community.'' So, 
poor quality and little quantity, we need a solution. 96 
percent of the surface water in North Dakota is in the Missouri 
River, and if you were to look for a source of water, that 
would seem a logical place.
    I have in my remarks a quote from former Governor William 
Guy. I will just take one sentence out of that. He was 
describing a drought situation back in the 1930's, and his one 
sentence that I'll use here is that, ``There was talk of 
returning the Fargo Sewage Plant discharge to the river above 
the city water intake.'' In other words, taking the sewage and 
recycling it back and using it again. We are talking about that 
now as we plan for contingency in the case of a drought in our 
region.
    The population growth in Fargo has been just under 2 
percent per year for 20 years. It continues to grow at about 
that rate. The population estimates used and all the studies I 
looked at so far consistently underestimate the population 
growth in Fargo. We think we need more quantity than has been 
suggested.
    We are concerned with the downstream States as you 
indicated, Senator, that they have some concern. But the amount 
of water that has been suggested for removal from the Missouri 
River from--to transport over to eastern North Dakota, if you 
would put this in a graphic representation and a pail of water 
represented all the water of the Missouri passing through, say, 
Bismarck, the amount of water we would take out of that pail is 
one thimbleful.
    I also mentioned the quality. If water from the Missouri 
River were to come to eastern North Dakota, it would cost us 
much less to process. The quality of Missouri River water is 
better than either the Red River or the Sheyenne.
    We have attempted to undertake certain conservation methods 
and would continue that, and the time frame that I think that 
we need to be concerned about is, as you have indicated, 
Senator, is right now. But some have indicated that we have, 
perhaps, a 10- to 15-year time window if we do not have a 
drought. If we do have a drought, that time window could be as 
little as three to five years.
    In summary, I have been mayor now for 8\1/2\ years. My 
knowledge about water when I started this job was you turn the 
tap on and water comes out. I've learned a lot about water in 
this time and I just would like to quote a man who's an expert 
in my opinion, Jim McLaughlin, who told me at the beginning of 
my career as mayor, we don't need any more studies about water. 
We know how much water we need. We know what to do with water. 
I guess I would just echo your phrase that we are tired of 
waiting, we are out of patience.
    [The prepared statement of Mr. Furness follows:]
        Prepared Statement of Bruce W. Furness, Mayor, Fargo, ND
    Mr. Chairman and Honorable Members of the Subcommittee on Water and 
Power of the Senate Committee on Energy and Natural Resources, I am 
Bruce Furness, Mayor of the City of Fargo, North Dakota. Thank you for 
this opportunity to testify before the Committee on Red River Valley 
water needs.
                              introduction
    Benjamin Franklin once said, ``When the well is dry, we know the 
worth of water.'' North Dakotans want to be proactive in managing our 
``well"; we can't wait until it is dry. We have become unified behind 
this act through the North Dakota Water Coalition, a group of widely 
diverse interests which has come together to advance water development 
in our State. We have been unified in assuring passage of a State Water 
Plan in the 1999 North Dakota Legislature, a historic achievement. We 
are unified in developing a consensus piece of legislation through the 
U. S. Congress that will assure future water supply for all our 
citizens.
    Fargo is located on the eastern edge of North Dakota, separated by 
the Red River of the North from Moorhead, Minnesota. Together the 
Fargo-Moorhead area is the largest US population center in the Red 
River Valley with approximately 165,000 people. Fargo has enjoyed an 
annual growth rate of about 2% for the last 20 years and is actually 
accelerating in growth at this time. The requirement for more water is 
a direct result of this growth. From a statewide perspective, nearly 
40% of our population resides in the six border counties adjacent to 
the Red River.
    Our area does not have an overabundance of water supply resources. 
Extended dry conditions and droughts have shown us that current 
resources alone cannot meet the water supply needs of this growing 
region. Development of a dependable water supply, along with careful 
management of the resources currently utilized, will allow the region 
to meet its changing and expanding water needs.
    Our concern is best summarized by the introductory paragraph of a 
report by Black & Veatch, the design consultant for our new water 
purification plant:

          The City of Fargo has rights to two water sources for 
        treatment and subsequent supply to its citizens for potable 
        use: the Red River of the North and the Sheyenne River. 
        Unfortunately, both sources are of poor quality and, even taken 
        together, they do not offer a reliable quantity of water to 
        meet Fargo's present and certainly future water needs. The 
        diversion of Missouri River water to Fargo by way of Garrison 
        Dam would provide a long-term lifeline for the community.

                                quantity
    A good supply of water is key to our City's continued growth and 
development. Although record-setting floods have recently occurred, 
history shows that low water in this river has occurred more often and 
caused more problems for our residents than has flooding. For example, 
during the 1930's the Red River had stream flows at Fargo below 10 
cubic feet per second (cfs) for seven straight years. This same 
phenomenon occurred in the late 1970's and once in the 1980's. A flow 
of ten cfs of water in the Red River represents less than one foot of 
water in the streambed at any given point.
    Listen to a recollection by former Governor William Guy of Fargo.

          If you were to look at the Red River near the water plant in 
        the 1930's, you would wonder how they ever made the water fit 
        to drink. The searing hot drought hung heavily over the Upper 
        Midwest through the entire decade of the 1930's. The Geological 
        Survey records say that the murky Red River ceased to flow at 
        Fargo for a period in every year of that decade. The driest 
        year was 1936 when the Red River stopped flowing for 166 
        continuous days. Cars were not washed. Lawns went unsprinkled. 
        There was talk of returning the Fargo Sewage Plant discharge to 
        the river above the city water intake. Moorhead was drawing all 
        of its water from wells east of the city and their tap water 
        tasted good. With a population of around 25,000, Fargo's water 
        situation was desperate. . . . Today both Fargo and Moorhead 
        draw their water from the Red River while their combined 
        population has increased five fold from the dry 1930's. 
        Industries not even dreamed of 65 years ago now use copious 
        amounts of Red River water. It is easy to understand why the 
        Garrison Diversion Project to bring Missouri River water east 
        to the Red River Valley has been on the minds of thinking 
        people for more than 50 years.

    Though difficult to project, future regional water requirements 
will be determined by several factors:

  <bullet> Population growth and economic expansion in Fargo will 
        continue into the next century at the same 2% annual growth 
        rate. The entire region is expected to grow correspondingly.
  <bullet> Per capita usage is currently below national and regional 
        averages but could increase without stringent use of 
        conservation measures.
  <bullet> In 1995, a large corn processing plant went on-line in the 
        Red River Valley. It is projected that a minimum of three 
        additional plants will be constructed in the basin over the 
        next forty years. Water usage for each of these plants may well 
        equal what the City of Fargo uses in an average day. Thus, any 
        needs analysis must include future growth resulting from 
        increased value-added agricultural processing.

    Another consideration relating to water quantity is that of minimum 
stream flows. As indicated earlier, there have been times of extremely 
low flows. One analysis suggests that 7 cfs as a minimum flow in the 
Red River is sufficient. That is totally unacceptable.
    An examination of historical seven-day-duration flows shows many 
periods of inadequate flows for our current usage and increasingly more 
severe problems as our usage grows to new plant capacities. 50 cfs is a 
bare minimum to be considered, 75 cfs is desirable.
    The use of Missouri River water is an obvious solution to this 
availability problem. 96% of the usable surface water in North Dakota 
is in the Missouri River. It represents the best source of highly 
available water and has an extremely small impact on downtstream sites. 
Analysis shows that the potential allocation of 100 cfs for Eastern 
North Dakota is less than 1/2 of 1% of Missouri water flowing through 
our state. A graphic description of this minimal impact is to think of 
the entire flow as a gallon of water. The proposed allocation is then 
represented by a thimbleful of water (1/2 fluid ounce).
    Allow me to incorporate by reference the ``Red River Valley Water 
Needs Assessment Report'' documented by the Bureau of Reclamation, 
dated April 1998. A second study is the ``Red River Basin Water Supply 
Report'' prepared by the Red River Basin Board, dated April 2000.
                                quality
    When water is not available in adequate amounts, the quality of 
water also declines. This fact has a high impact on processing costs. 
Relying on the Red River as its main source of water requires cities 
from Fargo to Pembina to take extraordinary measures to treat raw 
water. Both Fargo and Moorhead have recently built new water treatment 
facilities which use ozone (an electrically charged liquid oxygen), the 
latest available technology to disinfect the water. Ozone is a 
treatment process which has become the favored disinfectant for raw 
water having high organic characteristics.
    Ozone can do in 3 seconds what it takes chlorine 3 minutes and 
chloramine (chlorine and ammonia) 12 minutes to accomplish. However, 
this highly efficient treatment comes with a price--the cost of 
producing the ozone. To electrically charge liquid oxygen, the power 
costs for Fargo's treatment plant will double to $600,000 per year.
    Another advantage of treating better quality water can be shown by 
comparing the cost of treating Missouri River water at Bismarck with 
Red River water. Our staff analyzed the chemical costs to treat a 
gallon of water and discovered that Fargo's cost is about 22 cents per 
1,000 gallons while Bismarck's costs are 9 cents per thousand. As water 
quantity and quality decrease, the cost of its treatment increases.
    Each of these examples demonstrates the preference for treating 
higher quality water such as that found in the Missouri. As with 
quantity, water of better quality is a vital need for our community and 
region.
                              conservation
    Water conservation strategies employed by the City of Fargo include 
the adoption of odd/even lawn watering restrictions beginning in 1989 
and continuing through today. In 1997, a demonstration xeriscaping 
program was implemented with over 100 homes participating. We intend 
for this program to grow. A 15-year project to replace deteriorating 
water mains has begun. The result will be a significant reduction in 
water loss. Using all these tactics, water management will remain a 
high priority item in our City.
                               time-frame
    Although impossible to predict with any certainty, it is believed 
the Red River Valley has adequate water supply for the next 10 to 15 
years. Should drought conditions occur, however, that estimate may be 
reduced to 3-5 years. Consequently, little time remains to resolve 
these concerns. Activity must begin now to address the many issues 
relating to water quantity and quality. I urge your positive 
consideration of our needs.
    I will be pleased to respond to any questions you may have. Thank 
you once again for the opportunity to testify before your subcommittee.

    Senator Dorgan. Mayor, thank you very much.
    Let me ask a series of questions. First of all I want to 
understand why we are at a point where the draft statement 
would now be available 4 years late. And Ms. Bach, you talked 
about some allegations of illegal interpretation of the Act, 
number one. You had to negotiate the memorandum of 
understanding, and as I read through some of the descriptions, 
in fact your statement says the EIS, draft EIS is to be 
prepared jointly with the State of North Dakota. Some 
deliberation was required on the part of the State to determine 
which agency would act as the lead for the State. The decision 
process was followed by a significant effort to negotiate a 
memorandum of understanding which defines the scope of the 
partnership and general roles and responsibilities. As I read 
through the lines, or between the lines, it seems to me like 
there is some assertion that the Bureau, the State, the 
Conservancy District spent a lot of time trying to work this 
out to figure out who was supposed to do what, who's going to 
coordinate, who's going to manage this. Is that part, are you 
saying that's part of the reason this is delayed, and if so, 
describe that process to me.
    Dr. Bach. Mr. Chairman, I think that the Conservancy 
District, the State of North Dakota and Reclamation worked 
quite constructively to lay out those responsibilities. The 
criticism that we were presented was that under Dakotas Water 
Resources Act and some of the late discussions in the process 
with DWRA's report, DWRA finally passed the floor of the 
Senate. There were some negotiations with the lower basin 
States, as you so well know, and there were specific 
authorities assigned to the Secretary of the Interior to do 
this study, and there resulted in language that was very 
specific that the State and the Bureau would do--or, actually 
would do the EIS together. We actually had those functions 
commingled. We were sharing those in the original MOU. We were 
not making a distinction between the study--the needs and 
options study--and the EIS. And so, we did go to lengths to 
make it very specific so that we were not subject to some of 
the same criticisms that we were previously subject to.
    The correspondence that we received did have a tone of 
litigation threat to it, and we had very serious discussions 
with attorneys inside of the State as well as with the Federal 
Government as to how to assure we did get through this process 
and not be subject to litigation at the end of it which would 
terribly disturbing to all who need water supply in the future.
    Senator Dorgan. Well, it seems to me there isn't any way 
that you can move through this process without understanding 
you're probably going to be subject to litigation. Litigation 
is part of the process of--part and parcel of this process.
    What I'm asking is was there just a lot of visiting going 
on for a long time here? It seems to me that trying to figure 
out who's going to assume what responsibilities ought to have 
taken a meeting or two, and then you move on. But the way I 
understand what has happened here is, you all have been meeting 
and meeting and meeting, trying to sort out who's responsible, 
the State, the Conservancy District, and the Bureau. How long 
does that take? I know you have got the MOU done now, but does 
that take 2 years?
    Dr. Bach. That wasn't all what we were doing in that 2-year 
time frame. We continued with the plan of study for the needs 
and options. Reclamation was certainly at work with writing the 
necessary contracts that--where we could get the work 
contracted out to others to do. So the time was not consumed 
totally in discussions, although there were serious discussions 
about the interpretations of the Act. There are some that have 
suggested that the Act is unclear and, frankly, we did not take 
that position, but we did seek to make as clear as possible the 
interpretation of the Act.
    Senator Dorgan. But if it took 2 years to get a memorandum 
of understanding, is it logical for me as legislator to assume 
that that 2-year period was a period you were negotiating with 
the State and the Conservancy District about whose role was 
going to be--or who was going to assume what role in this 
process, or could you have done the MOU earlier? And if not, 
why not?
    Dr. Bach. Well, we make--as I noted when I gave my 
testimony, we signed an MOU in good faith, with our 
understanding of our authorities before the DWRA so we were 
very much at work and in progress trying to proceed with the 
studies that had been done and advancing them. And our 
discussions were with the State, and it did involve from time 
to time discussions with parties that the State brought to the 
table.
    Senator Dorgan. I guess two questions. One, Mr. Frink, you 
don't seem very exasperated about this. You didn't seem to 
express great concern that it's taken 2 years for the MOU. If 
it's going to take 2 years to do something the law said should 
have been done in a year, why didn't somebody issue the report 
to Congress and say we're all visiting over here and there is 
no sense of urgency, but we're not going to submit the report? 
I don't understand all this. Mr. Frink, you don't seem very 
agitated about it. I'm agitated about it. Why aren't you?
    Mr. Frink. Well, I guess, first of all, right after DWRA 
was passed, I think we got off to a very good start. There were 
technical teams formed. We had study review teams formed. We 
had some meetings. Some of the environmental groups started to 
write letters to the Bureau of Reclamation and it's very easy 
to--these letters took a lot of time to answer and so forth. 
But I think it was in October that the Bureau of Reclamation 
came to us and said that these environmental groups are making 
some good points here and recommended that the State of North 
Dakota pick one single entity as the lead, and I think----
    Senator Dorgan. When was that?
    Mr. Frink. I believe that was in, like, October 2001.
    Senator Dorgan. That was over a year ago.
    Mr. Frink. Yes. And Governor Hoeven, within 1 or 2 months, 
did select the C District, and----
    Senator Dorgan. So that was a year ago. My question is why 
did it take from then until now, another year, to get the MOU?
    Mr. Frink. It has taken a long time to go through the 
Federal system. It just took a lot longer. I certainly don't 
like the delay. I mean, we have a lot of discussions on this. 
But, I mean, we promised to do this study right. There's--quite 
frankly, there is a lack of trust between environmental groups 
yet. There are groups out there that believe this is just 
another front for the old Garrison Diversion Project, including 
irrigation, and we've said that many times that we need to do 
this right and see if we can gain some trust back, because 
it's--we do have a long way to go, but we are working very hard 
to do it right, and if it takes a little bit longer, I guess 
I'd rather do that rather than get caught up in 2 and 3 years 
down the road and have to go back and retrace our steps.
    Senator Dorgan. That's a fair point. I want it done right 
as well, but I want it done within a century or so. And my 
great concern is that year after year after year, in every 
circumstance we see water projects delayed, delayed, delayed. 
And this was a part of the Dakota Water Resources Act that was 
a significant part that dealt with eastern North Dakota's 
interests. We've already been through Phase I and Phase II 
appraising the Red River Valley needs assessments. We have 
already had this discussion about underestimating what the 
population is going to be here in Fargo. We have already raised 
the questions about will you have an adequate report if you 
don't consider the needs of Moorhead, East Grand Forks, 
Breckenridge. All of these things have been out there for a 
long, long time. I just think it's unreasonable for all of us 
to think about December 2005 as an end date for a process that 
we intended to have done in December 2002, this very month. 
Right now. It appears to me we've just finished the 
introductions, the preliminaries, the MOU's. So, I don't want 
you to misunderstand. I want this done right as well, but I 
also want there to be an end date and one that's reasonable.
    Let me ask Ms. Bach. You mentioned the drought. And many of 
us are very concerned about that. A portion of our State was 
hard hit, not the entire State. But is it conceivable that 
spreading drought in this country could cause some very serious 
challenges to eastern North Dakota and its long-term water 
supply before we get to the solution that was authorized in the 
Dakota Water Resources Act? And if that's possible, what would 
you advise the mayors of the two largest cities on the river?
    Dr. Bach. Mr. Chairman, before I took the position of 
Regional Director of Great Plains Region, I was the drought 
coordinator for the Bureau of Reclamation. One thing I learned 
to do with much caution was any attempt to predict Mother 
Nature, and there are several States, as I noted, within this 
region that are experiencing drought, and there are a number of 
indicators that people in the water management business watch 
very carefully in terms of water supply.
    Insofar as your question with regard to what to advise, or 
how to interact with elected officials who are needing to 
meet--who are there to meet the needs of the community, I 
believe that our working relationship with the State Water 
Commission is quite positive and that we offer our assistance. 
There are a variety of technologies that we employ in times of 
drought, and I do believe that the relationship between the 
cities on the eastern side of the river and western side of the 
river are important insofar as how they are considering the 
water and how they manage it during the drought.
    Senator Dorgan. Let's assume the worst for a moment. Let's 
assume that you meet your time table. By worst, I mean several 
years beyond when we expect it. But 2005, December 2005, the 
draft EIS is completed. Mr. Frink, you were probably describing 
a letter by our old friend Dan Beard that requires people to 
put on the emergency brake and study, and get frozen in fear. 
Let's assume that despite all of these things, a letter from 
Dan Beard and all the other complications that arise and cause 
people to stop what they're doing, and you get the draft EIS 
done, December 2005, under what circumstances and when can the 
Red River Valley expect a supply of water to come from that 
activity?
    Dr. Bach. Again, it depends on what kind of construction 
needs to be done. In some cases, it can be small-scale. That 
can happen in the construction season, or otherwise. In other 
cases, it may be multiple-year construction.
    Senator Dorgan. What if it is an interbasin transfer, and 
the decision--the water needs tell you and tell us that we must 
have a supply of water delivered to eastern North Dakota from 
the Missouri River, how long would that take?
    Dr. Bach. Under the statute as I know you so well know, Mr. 
Chairman, if there is an out-of-basin solution, if there is a 
transbasin solution, we, the parties have to come back to you, 
the Congress, for the authorization, and I know you so well 
know the international consultation complications.
    Senator Dorgan. I understand. In fact, I have not talked 
about the difficulties of that. There will be extraordinary 
difficulties in Congress because we'll have a big fight with 
other interests when and if that happens. But I'm talking now 
about the construction cycle. Assume for a moment that you meet 
a date of December 2005, and Congress further authorizes the 
construction of said facilities to deliver Missouri water to 
the Red River, what's the time line for something like that in 
your judgment?
    Dr. Bach. Well, I think what was asked us because we would 
not--the authorization would not necessarily be in sync with 
the budget aspects, but with some gymnastics, it could be at 
the minimum a year or further before you could see any 
construction. I think we're talking beyond one year after 
Congress would authorize us to go forward.
    Now, again, it's not that we couldn't all challenge 
ourselves to move money around and see what we could do to let 
contracts.
    Senator Dorgan. You're talking about construction 
beginning. We're talking about a delivery system from Missouri 
to the Red River Valley. I'm asking what can the Red River 
Valley residents expect in terms of the time that might take. 
Are we talking 10 years, 5 years beyond 2005 optimum?
    Dr. Bach. Depending on the complexity of the construction, 
you're talking multiple years, and it gets back to your concern 
of when we have the first product to react to.
    Senator Dorgan. My concern is despite everybody's good 
intentions, you could very easily see a circumstance where a 
drought has devastating consequences for the Red River Valley 
long before anybody can move water here because all of this 
takes a much longer period of time than may well exist. I don't 
know whether you have seen, for example, the potential numbers 
about how much snow pack might exist in Montana, how much might 
come off of the Montana Rockies into the reservoir system and 
into the Missouri River system this coming spring, but the 
effects of the drought--widespread--could have significant 
consequences in the Red River Valley. My concern is that there 
is kind of a business-as-usual, not just with the Corps, but 
perhaps with almost everybody. Not just with the Bureau, I 
should say, but perhaps with almost everybody. Well, let's just 
have all these meetings and see if we can keep talking about 
who has what responsibility.
    And Mayor Furness, have you been involved in any of these 
meetings regarding how you slice up the responsibility between 
the State, the Conservancy District, the Bureau, who's going to 
do what?
    Mr. Furness. Only through telephone calls.
    Senator Dorgan. Mayor Brown, have you?
    Mr. Brown. No, sir.
    Senator Dorgan. I received, Ms. Bach, about 4 days ago, a 
letter from the Bureau of Reclamation, which I believe was 
intended to meet its responsibility to send a report to 
Congress when it missed the December 2001 date. I received it 
one year late. And what that letter told me was that the Bureau 
of Reclamation still intended to meet the December 2005 date. 
What I indicated to the Bureau is that that's just not 
acceptable to me. I don't think it's acceptable to the 
Congress. The Congress passed the legislation after great angst 
and substantial effort, and in the legislation, we provided a 
1-year and 2-year process. Now, I'm willing to accept that 
perhaps one year was optimistic. I'm willing to accept that. 
But I'm not willing to accept that additional 4 or 5 years is 
necessary to do that which the Congress intended the Bureau to 
do in a time frame. And my question tonight is what can we 
expect in eastern North Dakota to have the Bureau truncate 
this, not with respect to shortchanging any part of this 
process, but to tell us they can do this earlier than December 
2005. Are there ways that can happen and is the Bureau willing 
to commit to make it happen prior to December 2005?
    Dr. Bach. I'm willing to commit to sit down with the 
parties and lay out options that we've identified for where the 
schedule can be curtailed. I want to be able to do that with 
the parties so that they understand what information we would 
not have, and what information we would have as some of the 
reasoning for the parts of the schedule reflect that we 
understood to be the convenience of the different communities. 
I will make every effort to see any opportunity we can to 
curtail the schedule for the final plans.
    Senator Dorgan. One additional question. Is the process we 
are now involved in a process that's going to consider the 
water needs of Moorhead, East Grand and Breckenridge as well?
    Dr. Bach. This statute does identify, the statute does 
identified the needs and options to meet the needs of North 
Dakota. In order to get that information, Mr. Chairman, we have 
to identify what is being utilized and what the plans are to be 
utilized in the future of water supply with the communities on 
the other side of the river.
    Senator Dorgan. The answer to that is yes?
    Dr. Bach. The answer to that is information will be in the 
documents. We will be strict to respond to the statutes, but we 
will do it in a complete way so all the information is laid out 
in a report.
    Senator Dorgan. Are the population estimates being used to 
the extent you're aware of them Mayor Furness, Mayor Brown, 
population estimates you think are reasonable?
    Mr. Furness. Mr. Chairman, I don't know what the population 
estimates are being used in this study. I'm not sure that has 
been addressed.
    Senator Dorgan. Are the revised population estimates in the 
two previous studies, Phase I and Phase II study, as I 
understand, those population estimates have been revised, or 
proposed to be revised, are they satisfactory to you?
    Mr. Furness. We had our version and the Bureau has their 
version. We were not in sync on those, no.
    Mr. Brown. I agree with Mayor Furness.
    Senator Dorgan. So, Mr. Frink, what do we do about all 
this?
    Mr. Frink. Well, first of all, I guess we need to complete 
the EIS. It's an absolute necessity and if it's in the DWRA, 
all I can say is that, you know, we would like to follow 
something similar to what we did on the Southwest Pipeline 
Project and the Northwest Water Supply Pipeline projects. And 
that is as soon as these documents are signed and we are told 
to go, we start. The Bureau of Reclamation on those projects 
last year gave us the approval to start that project in 
December, and as soon as the frost is out of the ground we had 
pipe in the ground and, but you have to go through the process 
and, you know, I think we have to do it right here. And to EIS 
process is clearly taking longer than we hoped.
    Senator Dorgan. Let me just make a point. It will not be 
doing it right to delay this by years. Doing it right is, yes, 
doing it correctly, but doing it in a truncated time line. It's 
just not doing it right that we end up with a drought that 
devastates the Red River Valley's growth potential, and we 
don't have an opportunity to move the kind of water here that 
they need to move here. In fact, that's what the decision is. 
So in order to do this right means we have to move with some 
dispatch.
    Now, Ms. Bach, I'd like to ask you to go back to Mr. Keys 
and work both at the Headquarters and also the Regional Office 
and submit to the Energy Committee a revised schedule telling 
me what kind of opportunity exists to truncate this time line 
because I think it's safe to say that my colleagues on the 
committee would not find it a favorable development to 
understand that we've seen this delayed now 4 years, and so I 
would like to have you submit to us a revised schedule based on 
your evaluation of where you can begin to truncate this 
process. Yes, do it right, but doing it right means doing it on 
time as well.
    Can we expect a response to that, Ms. Bach?
    Dr. Bach. Absolutely.
    Senator Dorgan. And when might we get a response? How long 
will that take?
    Dr. Bach. I will give you something to look at within 4 
weeks, Mr. Chairman, if that's acceptable.
    Senator Dorgan. All right. So within 4 weeks the Bureau 
will send to the committee your estimate of what a revised 
schedule would look like, and, Mr. Frink, you're going to get 
agitated about this, and when we get the new date we are all 
going to--assuming the new date truncates this some, we are all 
going to build a big fire and hold everybody's feet to the 
fire, is that a fair statement?
    Mr. Frink. Mr. Chairman, let me say on behalf of the State 
Water Commission, we are playing a very important role. If we 
can get this EIS done sooner, we will throw the resources at it 
to make it happen. It is an incredibly important study, but 
we'll do whatever we can to shorten that date to the extent 
possible.
    Senator Dorgan. All right. Well, we will wait 4 weeks and 
wait to receive, Ms. Bach, your revised estimate. I hope you 
will scrub that with the headquarters very carefully, and we 
will share that, of course, with the folks of the Red River 
Valley and the folks at the Conservancy District, and the State 
of North Dakota as well.
    Let me reemphasize, I can't reemphasize enough the point 
that I have seen everything slip forever on water policy and it 
is so frustrating. I understand there are a hundred people out 
there wanting to sue somebody. We're working right now on the 
NAWS project, which is a heck of a good project. And the minute 
we do the ground break, Canada throws us into court. They have 
a right to go into court, certainly, but I hope it's thrown 
out. The suit doesn't have merit, and I hope it's thrown out. 
The point is at every step of the way on every conceivable 
approach on water we end up with all kinds of problems. But, 
you know, on the Missouri River master plan, nobody can get it 
done. You can't get answers on this. When I see the time lines 
slip, obviously it makes me angry. I want this done. I want us 
to meet our time line.
    Ms. Bach, I have worked with you on other issues with the 
Jamestown Reservoir and other things. You're a dedicated public 
servant. You understand the angst that people have about water. 
The mayor used the quote, and there are plenty other quotes 
about water that aptly describe the passion about water. 
Because you can't--no economy, no region could exist without 
water. It is the engine of economic growth. You shut the water 
down running through this Red River, you will shut down the 
economy of this part of North Dakota. So, that's why it's 
important.
    I appreciate your coming to Fargo this evening, Ms. Bach. 
And Mr. Frink, for you coming over from Bismarck. And Mayor 
Brown, Mayor Furness, thank you very much for being here as 
well.
    Let me excuse you and if you have additional comments you 
wish to submit, the hearing record will remain open for 2 
weeks.
    We call Mr. Warren Jamison, the manager of the Garrison 
Diversion Conservancy District; Ms. Genevieve Thompson, vice 
president and executive director of the Audubon Society of 
North Dakota; Michael Dwyer, the executive director of North 
Dakota Water Users Association.
    Let me, for the record, indicate that Chairman Tex Hall 
from the Mandan, Hidatsa and Arikara Nation was invited to 
testify. He was not able to be here, so he submitted testimony. 
We have also have submitted testimony on behalf of the Fargo-
Moorhead Chamber of Commerce in the form of a letter from David 
Martin.*
---------------------------------------------------------------------------
    * The testimony can be found in the appendix.
---------------------------------------------------------------------------
    I want to thank all of you for being here as well. You were 
able to hear the previous testimony.
    Mr. Jamison, perhaps more than anyone in this room, you 
have worked year after year after year on a wide range of these 
problems and issues dealing with water, and we certainly 
appreciate that effort and those results. My guess is you 
probably share the same anxiety I do about time lines and all 
those added issues. But we appreciate very much your being 
willing to come to Fargo this evening and testify.
    Why don't I begin with you and your entire statement will 
be made a part of the record.

           STATEMENT OF WARREN L. JAMISON, MANAGER, 
            GARRISON DIVERSION CONSERVANCY DISTRICT

    Mr. Jamison. Thank you, Mr. Chairman, and thank you for 
allowing me to testify today on this important subject. My 
complete testimony will be in the record, as you indicated.
    Last week, I was in Arizona at the National Water Resources 
Association Annual Meeting, and there was a lot of talk about 
drought down there. I spoke with Commissioner Keatings and 
Maryanne Bach from the Bureau of Reclamation as well.
    I want to emphasize the extent of the drought that is 
creeping toward us. States like Montana are in their fifth year 
of drought. Certainly they're heading towards drought of 
Biblical proportions. It's deeper than the drought of the 
1930's. Its duration is going probably beyond what we would 
normally predict. Similar stories in Wyoming and Nebraska. I 
spoke with the State engineer of Nebraska, and they are into 3 
years of very serious drought. 30 percent worse than the 
drought of the 1930's in Nebraska. The commissioner referred to 
an inflow of the reservoir in the Rio Grande area inflows were 
2 percent of normal.
    Senator Dorgan. Where was that again?
    Mr. Jamison. That was in the Rio Grande Valley. Two percent 
of normal. These are horrendous numbers. But they are just 
abstract thoughts unless you put economic dollars with them. 
And when you do put economics to these numbers, the worst kinds 
of natural disasters that occur in the country are not fires 
and floods, but droughts. Always.
    We see economic study after study indicating that the worst 
impacts of natural disaster in this country are the result of 
droughts. The 1987 to 1989 time frame, where we had a severe 
drought in this part of the country, but it also was in other 
parts of the region, the total from that alone was $39 billion. 
Well, if we have a drought that's 30 percent deeper, or 20 
percent deeper than the ones we have on record, and of a longer 
duration, imagine, if you will, where these dollar impacts will 
go.
    Dakota Water Resources Act attempted to, and I think wisely 
so, choose the high road in terms of trying to prevent these 
things from occurring by wise planning and wise use of the 
natural resources. If we can prevent drought from occurring, we 
can prevent the impacts of these droughts from occurring. We 
can't prevent droughts from occurring, but the impacts of them 
by managing our resources wisely.
    Certainly, Dakota Water Resources Act is clear, and it can 
compel us, as it should, to look at all the alternatives, all 
reasonable alternatives in a full and fair, objective way to 
meet the water supply in the Red River Valley. We certainly 
intend to do that, and we intend to meet a criteria for water 
supply that I have used many times. Water supply isn't just 
dump the water. For us, there are three characteristics of 
water supply. First of all, it must be reliable. It's not good 
enough if you can get it seven out of 10 years. Three years can 
be the end of your economy.
    It must be of high quality. What good is water if you can't 
drink it, if you can't use it for industrial purposes.
    And lastly--and the act anticipated this as well--it must 
be affordable to the local citizens, consuming citizens.
    So, with those three characteristics in mind, we are 
dedicated to working as closely as we can with the Conservancy, 
with the Bureau of Reclamation, with the State of North Dakota 
to make sure that a water supply is delivered to the Valley.
    And in my opinion, the 2 years that we have spent trying to 
get organized is an undue delay, and there are causes that we 
can talk about, and perhaps you will ask about those, but I 
would like to indicate that I would rather focus on the future 
on a closer relationship with the Bureau, with the Audubon 
Society. I have had the pleasure of looking at Ms. Thompson's 
testimony. She makes a number of very constructive suggestions 
that the Conservancy District, for one, at least, will take 
seriously. I think they're very helpful, and will take effort, 
but that's an effort we need to put forward and we will do 
that. I think there's lots of opportunities to do this 
constructively and do it well.
    The Bureau has a job to do and we want very much to be 
helpful and working closely with them to make sure that we 
avert the horrible impacts of a drought. I'm hopeful that the 
outcome of these proceedings in the future will be a more 
closely coordinated effort to move forward, and to move forward 
with dispatch and a the full examination of all the 
alternatives and eventually delivers water to the valley.
    I will answer questions.
    [The prepared statement of Mr. Jamison follows:]
           Prepared Statement of Warren L. Jamison, Manager, 
                Garrison Diversion Conservancy District
    Chairman Dorgan and Members of the Subcommittee, I appreciate the 
opportunity to present the Garrison Diversion Conservancy District's 
(District) views on the Red River Valley Water Needs.
    We are sitting on a time bomb! Droughts of greater magnitude than 
those of the 1930s are all around us. If they should spread to the Red 
River Valley, we will be in dire straits, and the delays on the Red 
River Valley Studies will be seen as deadly to the people and the 
economics of the Valley.
    Drought is a normal, recurrent feature of the climate of virtually 
all portions of the United States. Because of the country's size and 
the wide range of climatic regions present, it is rare for drought not 
to exist somewhere in the country each year. As of October 2002, 47 
states, including North Dakota, were experiencing a drought or drought 
warnings. Rainfall was significantly below average in 27 states. In 
parts of Nebraska, 2002 rainfall amounts through September were not 
only 80% below normal, but also 30% less than what fell during the 
worst of the 1930s drought years. Economic losses for the summer of 
2002 could reach $20 billion.
    Drought is a natural hazard that cumulatively has affected more 
people in North America than any other natural hazard. The cost of 
losses due to drought in the United States averages $6-8 billion every 
year, but range as high as $39 billion for the three-year drought of 
1987-1989, which was the most costly natural disaster documented in 
U.S. history.
    The severe multi-year drought that plagued the western United 
States during the 1930s and 1950s is now a distant memory for most. A 
recurrence of these multi-year droughts today would result in 
substantially greater and more varied impacts because of the rapid 
expansion and urbanization of the region's population and increase in 
urban water demand during the past several decades. Also, there has 
been an associated increased pressure on water and other natural 
resources, even though there has been a significant increase in long-
term and emergency water storage facilities and the understanding of 
the necessity for the application of water-conserving technologies.
    The traditional mind set of some government entities has been to 
react to drought by providing relief or emergency assistance to the 
affected areas. By following this approach, drought only receives the 
attention of decision-makers when it is at peak levels of intensity and 
when water management options are quite limited. This approach is 
ineffective and untimely. Thus, the Dakota Water Resources Act (DWRA) 
is intended to take the wiser route by forestalling the impacts of 
drought through wise planning and management of our available water 
resources.
    To fully appreciate what this scenario means to the Red River 
Valley, one only needs to look at the potential impacts to Fargo. 
Drought impacts would at the beginning, in progressive stage, go from 
restrictions on lawn watering, require impacting Ashtabula Reservoir, 
to cutting water supplies to industries, and, ultimately, to mandatory 
water rationing of residential drinking water. This would virtually 
shut down the economy of the Red River Valley and destroy their hopes 
for the future. We hope that never happens.
    Unfortunately, the noble goals of the DWRA, as they relate to the 
needs and options for water supply in the Red River Valley, are not 
being realized. It has been nearly two years since the passage of the 
DWRA, and the studies required by the DWRA are still not fully underway 
nor is the required Environmental Impact Statement (EIS).
    Following is a list of relevant dates that illustrate the slow and 
cumbersome process that has occurred while trying to begin the required 
studies. I will not take up your valuable time reading all of the dates 
but submit them for the record (Appendix 1).* I have excerpted a few 
dates which display the lengthy and poor track record on the MOU.
---------------------------------------------------------------------------
    * Appendix 1-15 have been retained in subcommittee files.

          July 5, 2000--A Memorandum of Understanding (MOU) to study 
        the needs and options at the feasibility level with the 
        District and State Water Commission (SWC) is signed. (Appendix 
        2)
          May 2001--The Bureau of Reclamation verbally indicates that 
        the existing MOU should be redone to include provisions of the 
        DWRA.
          March 2002--The Bureau hands out, during a meeting, a draft 
        MOU and Cooperative Agreement to the SWC and the District.
          August 20, 2002--MOU workshop held in Fargo.
          November 6, 2002--The MOU is signed by the Bureau of 
        Reclamation.

    From a perfectly valid MOU, to a decision to develop a new MOU and 
then to get a new one signed took over two years. This is unacceptable, 
even for a government agency.
    At the time that this testimony was prepared, a Cooperative 
Agreement necessary to authorize work on the RRV studies by the 
District is yet to be signed.
    These dates illustrate the unreasonable and unnecessary delays that 
have taken place in regard to the Red River Valley studies. As you can 
see, the Bureau of Reclamation's negotiation process is extremely 
inefficient. The person designated to negotiate does not really have 
the authority to negotiate. The Bureau representative provides language 
to District for comment, the District responds in good faith, another 
Bureau office changes their original language and then another round of 
comments ensue.
    This management style is particularly cumbersome, making 
negotiation inefficient and progress on the actual studies and EIS, 
which is required by the DWRA, minimal. We in North Dakota are 
certainly lacking priority attention on the negotiation.
    As we sit here today, the District has spent more than $600,000 on 
the process trying to move things forward with little success. The 
District's desire is to work with the Reclamation office to complete 
the project as quickly as possible so the people of the Red River 
Valley can be assured they will not suffer the devastating impacts when 
an extended drought occurs.

    Senator Dorgan. Mr. Jamison, thank you very much. I hope 
you will not mind if on a personal level I say I know you have 
been battling some health challenges, but you still--this 
evening and in recent months, even as you have done that--have 
been battling this water policy issue and we very much 
appreciate your dedication to this issue and I appreciate you 
being here this evening.
    Next, let us hear from Genevieve Thompson representing 
Audubon. Thank you very much for being here. I know you had 
other commitments outside of the State, and made a change in 
your plans in order to be here to testify. We appreciate that.

 STATEMENT OF GENEVIEVE THOMPSON, VICE PRESIDENT AND EXECUTIVE 
        DIRECTOR, AUDUBON'S STATE OFFICE FOR THE DAKOTAS

    Ms. Thompson. Thank you, Mr. Chairman. Before I begin I'd 
also like to thank you and the subcommittee for holding this 
important hearing. It's an example of the leadership you have 
given us on natural resource management in the State. So on 
behalf of all of the resource professionals in water, thanks 
again.
    With your permission, I'd like to submit my formal 
testimony for the record and highlight the testimony with my 
remarks this evening.
    For the record, my name is Genevieve Thompson. I'm the vice 
president and executive director of Audubon's State Office for 
the Dakotas.
    My testimony today is predicated on a strong personal and 
professional commitment to the Red River Basin. My family and I 
reside in Red River Basin.
    Audubon has a long-standing commitment to proactively 
solving problems in the Red River. At Audubon, we are currently 
leading an effort to establish a 600-mile greenway along the 
Red River. We serve on the executive committee on the Red River 
Basin Institute for Research and Watershed Education. We are 
working, as you know, to build a Audubon nature center for the 
Fargo-Moorhead community, and we are working on both the 
Technical and Study Review Teams for the Red River Valley Needs 
Assessment.
    As the subcommittee is aware, 45,000 square miles of Red 
River Basin watershed has a host of competing demands: Water 
quality, water supply, agriculture, recreation, mitigation of 
flood damage, wildlife and habitat, natural resource 
enhancement and the interaction between those and economic 
strengthening of the region.
    A large number of organizations are working to understand 
these challenges. I want us to remember that the subject of our 
hearing, the Red River Valley Water Supply Project isn't being 
undertaken in a vacuum. It coincides with several watershed-
wide planning initiatives.
    In my testimony, I provided a table of some of the 
activities and initiatives ongoing. There is the Red River 
Basin Commission, the Institute, the Greenway, the Red River 
Basin Decision Information Network. Riparian Project, the 
Corp's work, the Basinwide Flood/Waffle Initiative, the 
International Red River Board. Obviously, there is a host of 
efforts ongoing. And I think it's important that you hear 
United States, Canada, interstate, tribal representation, and 
you're doing so because the stakes are so important.
    We have had a lot of damage in the past. This drought 
represents potential great damage in the future. So, we need to 
implement solutions and, I agree, as soon as possible. We hope 
the Bureau places a similar priority in conducting these 
studies. We also hope that the Bureau can take advantage of 
some of the aforementioned initiatives so that we can come up 
with a solution that works for everyone. The act has a clear 
timetable and a clear mandate. We do believe that it should be 
done with a fair and open process. If we can conduct it with an 
unbiased and scientifically credible procedure, it's an 
unbelievable opportunity to finally resolve some of the 
controversy to avert lawsuits, and to get an actual sustainable 
water supply established.
    I hope, again, that the Bureau takes the study in an 
inclusive manner, public involvement, if facilitated and 
maximized, increases the likelihood of acceptance when 
something is finally put forward. It is slow and cumbersome. I 
have sat through many of these meetings and been privy to some 
of the negotiations. But I do think the time we spend now will 
hopefully limit the time in the longer term, when we come to an 
implementation phase. It's painful, but hopefully it will 
outcome, as you had mentioned, a faster implementation.
    We certainly can't predict at this point what the preferred 
options are, but there are just a few challenges that I'd like 
to highlight as we move forward. We live in such an extreme 
climate and in uncertainty of growth, so we hope and support 
consideration of economic development that incorporates 
research that reduces water use. Crystal Sugar is a good 
example of a water user that has incorporated research to limit 
their amount of water that they do use and still have a 
profitable operation. Also, can we look at industries that are 
less reliant on water. Marvin Windows, Microsoft Great Plains, 
the Research and Technology Park at NDSU. Hopefully those will 
move or forward in areas that we can supply water that are not 
water-retentive.
    Certainly, there is a long history of controversy about the 
Missouri River. We encourage a thorough evaluation that 
accomplishes an examination of those water demands.
    I am mindful of the drought. I have monitored the drought. 
There is a drought index. I'm concerned that we don't head into 
a similar area as the Colorado River, the climate basin, that 
we come up with a sustainable water supply so that would be 
incorporated. That's why Minnesota has been leading the way in 
identifying potential water sources that might be available in 
the event of a drought. The Otter Tail River, some aquifers, 
and I hope that we can continue to incorporated that as part of 
the strategy, particularly in the short-term. It won't take 
potentially 10 years or 5 years to identify and hopefully share 
some of those resources.
    Lastly, water conservation is certainly another area that 
we would urge. Might I respectfully suggest that a delegation 
from our work go to the American Water Works Association Water 
Conservation Workshop. Coincidentally, it is in February and it 
is in Florida. That might help recruitment.
    Thank you again. We support an open and frank and credible 
challenge. We support collaborations for watershed-based 
planning and we wish that the health of our entire ecosystem be 
maintained, human and otherwise. Thanks for the opportunity.
    [The prepared statement of Ms. Thompson follows:]
     Prepared Statement of Genevieve Thompson, Vice President and 
       Executive Director, Audubon's State Office for the Dakotas
    Chairman Dorgan, Senators of the Subcommittee on Water and Power, 
colleagues and participants, I would like to thank you for this 
opportunity to provide requested testimony on the ``Red River Valley 
Water Needs''. My name is Genevieve Thompson; I am the Vice President 
and Executive Director of Audubon's state office for the Dakotas.
    Before I begin my testimony, I would like to thank you, Senator 
Dorgan, for your support of our collaborative efforts to solve the 
challenges in the Red River Basin in a sustainable basis for the long 
term. We appreciate your leadership and interest. My testimony today is 
predicated on a strong personal and professional commitment to the Red 
River Basin. My family and I reside in the Red River Basin, and we 
therefore have a stake in our collective ability to provide for a 
sustainable water supply over the long term. Audubon/Dakota has a 
longstanding and demonstrated commitment to the Red River Basin. As a 
direct outcome of our participation in the FEMA funded International 
Flood Mitigation Initiative, Audubon/Dakota is leading the effort to 
establish an interstate and international 600-river-mile Greenway on 
the Red \1\ along the Red River of the North. Audubon/Dakota also 
serves on the Executive Committee of the Red River Institute for 
Research and Watershed Education.\2\ We are working concurrently to 
establish an Audubon Nature Center for the Fargo-Moorhead community, to 
promote an understanding of our natural world, and what it means to 
live responsibly within the Red River ecosystem. Finally, Audubon/
Dakota serves on both the Technical Team and the Study Review Team for 
the Red River Valley Needs and Options Report being prepared by the 
Bureau of Reclamation.
---------------------------------------------------------------------------
    \1\ The mission of the Greenway on the Red is to promote the 
development of a greenway system on the Red River and its tributaries 
that mitigates floods and protects people through education and 
partnerships that enhance the economy, environment and communities of 
the Red River Basin.
    \2\ The Red River Institute for Research and Watershed Education is 
an international partnership of government agencies, basin 
organizations, private sector professionals, and universities that 
works to identify, prioritize and conduct flood damage reduction and 
natural resource research within the Red River Basin.
---------------------------------------------------------------------------
    As the Subcommittee may be aware, the interstate and international 
watershed of the Red River covers 45,000 square miles. Because the 
basin is the remnant of glacial Lake Agassiz, the north-flowing Red 
River mainstem and valley proper are very flat, with the outer edges of 
the old lakeshore at 400 feet higher than the river's edge. The Red 
River Basin is faced with competing demands for water quality; water 
supply; mitigation of flood damage; agriculture; recreation and 
wildlife habitat; and natural resource enhancement.
    Although water resource protection/management in the Red River 
Basin is complex and challenging, the Red River Valley Water Supply 
Project (RRVWSP) coincides with several unprecedented basinwide water 
planning initiatives. Many of these efforts were encouraged by the 
International Joint Commission's report \3\ to the U.S. and Canadian 
federal governments, which recommends that governments ``should develop 
and implement comprehensive, multi-faceted plans.for concurrently 
reducing flood damage, protecting and enhancing the natural 
environment; and provide opportunities for multi jurisdictional problem 
solving and the exchange of best practices information. '' In the same 
year, Section 8 of the Dakota Water Resources Act called for ``an open 
and public comprehensive study of the water quality and quantity needs 
of the Red River Valley in North Dakota and possible options for 
meeting those needs'', which is the genesis for the RRVWSP.
---------------------------------------------------------------------------
    \3\ Living with the Red, 2000
---------------------------------------------------------------------------
    Table 1 below summarizes many of the multi jurisdictional water 
resource initiatives and projects that are currently ongoing in the Red 
River Basin. These are in addition to the Red River Basin Commission, 
which has taken leadership in setting a basinwide vision and 
decisionmaking framework. These efforts can potentially contribute to 
and/or benefit from the RRVWSP. They provide a means to ascertain how 
water resources should be utilized and safeguarded over the long term 
with multiple stakeholders in the Red River Basin.


------------------------------------------------------------------------
           Ongoing initiative                Description/stakeholders
------------------------------------------------------------------------
Red River Basin Institute for Research   The Research ``Center'' of the
 & Watershed Education.                   Institute is comprised of an
                                          international partnership of
                                          government agencies, private
                                          and public basin
                                          organizations, and university
                                          professionals to identify
                                          research needs in the Red
                                          River Basin, and to ensure
                                          research objectivity through
                                          sound science and peer review.
                                          The Watershed Education
                                          ``Center'' is working to
                                          provide seamless watershed
                                          education programs at K-12,
                                          post-secondary and community
                                          levels, with an emphasis on
                                          developing leadership
                                          throughout the basin. The
                                          Institute's Research arm
                                          serves as the technical
                                          committee for the Greenway on
                                          the Red.
------------------------------------------------------------------------
Greenway on the Red.                     Audubon/Dakota is working to
                                          promote the development of a
                                          600-river mile Greenway system
                                          on the Red River of the North
                                          and its tributaries from Lake
                                          Traverse in South Dakota to
                                          Lake Winnipeg in Manitoba,
                                          with partners in North and
                                          South Dakota, Minnesota and
                                          Manitoba. Anticipated benefits
                                          of this Greenway include flood
                                          damage reduction, enhanced
                                          water quality, improved
                                          riparian habitat for birds and
                                          other wildlife, riparian and
                                          wetland restoration, increased
                                          recreation and tourism, and
                                          economic benefits to
                                          agriculture and communities
                                          adjacent to the Red River.
------------------------------------------------------------------------
Red River Basin Decision Information     Creates an internet-based data
 Network (RRBDIN).                        dissemination system for the
                                          Red River Basin, for
                                          monitoring and decision-
                                          making. Current and potential
                                          data includes base map;
                                          spatial data (i.e., imagery,
                                          topography), water quality,
                                          etc.
------------------------------------------------------------------------
Red River Riparian Project.              Works with landowners, project
                                          sponsors and contributing
                                          agencies to protect water
                                          resources and improve water
                                          quality through land
                                          management planning and
                                          restoration in the riparian
                                          areas of the Red River Basin.
------------------------------------------------------------------------
Red River Feasibility & Reconnaissance   The basin-wide/main stem
 Study.                                   feasibility study being
                                          implemented through the USACE
                                          will provide a comprehensive
                                          perspective of the basin's
                                          water-related problems,
                                          issues, needs, and
                                          opportunities and a blueprint
                                          and analytical tools for
                                          future feasibility studies of
                                          tributary sub-basins and
                                          generate implementation
                                          strategies for projects to
                                          meet the subbasins' water
                                          resource needs and
                                          opportunities.
------------------------------------------------------------------------
Basinwide Flood Control/Waffle Project.  The Energy and Environmental
                                          Research Center (EERC-UND) is
                                          working to determine the
                                          feasibility of developing a
                                          basinwide system for temporary
                                          storage of floodwaters
                                          utilizing low-relief
                                          (agricultural) fields bounded
                                          by roads as temporary micro-
                                          storage pools during major
                                          flood events.
------------------------------------------------------------------------
International Red River Board Aquatic    The International Red River
 Ecosystem Health Committee.              Board (IRRB) was formed to
                                          consider water related issues
                                          in the bi-national watershed
                                          and to monitor the health of
                                          the Red River transboundary
                                          aquatic ecosystem; this
                                          committee is working to
                                          develop an integrated
                                          biological and water quality
                                          monitoring network.
------------------------------------------------------------------------
Minnesota Flood Damage Reduction         Also referenced as the
 (Workgroup) Initiative.                  ``Minnesota Mediation'' model,
                                          this effort focuses on water
                                          storage strategies and
                                          projects that reduce flood
                                          damage and also have natural
                                          resource benefits. Some of
                                          these projects involve flood
                                          plain and wetlands
                                          restoration. To date, the
                                          state of Minnesota has
                                          expended approximately $10
                                          million on this initiative.
                                          These land-based water storage
                                          strategies theoretically
                                          increase river base flows
                                          during droughts, in tributary
                                          streams and in the mainstem.
                                          These water storage activities
                                          also have the potential to
                                          augment groundwater recharge.
------------------------------------------------------------------------
Investigation of potential sources of    The state of Minnesota (MN-DNR;
 additional water in Minnesota for        MPCA) is seeking solutions
 North Dakota cities.                     within the Red River Basin to
                                          address periodic and rare
                                          droughts through the
                                          identification of: 1)
                                          potential water supply
                                          alternatives during droughts;
                                          2) water conservation
                                          strategies; and 3) economic
                                          development that is less
                                          dependent on water
                                          consumption.
------------------------------------------------------------------------
Red River Basin Watershed Initiative     This watershed-based strategy
 [pending--USEPA].                        addresses water resource
                                          issues across state, federal
                                          and international
                                          jurisdictional boundaries. It
                                          has been submitted to USEPA
                                          for funding by the Red River
                                          Basin Commission & the Red
                                          River Basin Institute. The
                                          goal of this Watershed
                                          Initiative is to protect the
                                          ecological integrity of the
                                          Red River. Components to be
                                          addressed by this goal include
                                          flooding, adequate and clean
                                          water, wildlife habitat, and
                                          recreational and natural
                                          aesthetic values.
------------------------------------------------------------------------
Conservation Reserve Enhancement         The Proposal under development
 Program (CREP) [pending--NRCS/FSA].      is for a multi-state CREP in
                                          the Red River Basin. In
                                          cooperation with multiple
                                          agencies and landowners, the
                                          CREP targets 200,000 acres for
                                          restoration and management to
                                          reduce flood damage, improve
                                          water quality, and enhance
                                          wildlife and fisheries
                                          habitat.
------------------------------------------------------------------------

    Mr. Chairman, as you can see from the table, there are a host of 
Federal, State and local entities both in the United States and in 
Canada who are devoting considerable attention to solving the problems 
of the Red River Basin. They are doing so because the stakes are great. 
We cannot afford to duplicate past damage we have sustained in the 
Basin from flooding and poor water resource protection. We need to 
implement solutions. The table demonstrates a diversity of participants 
who are dedicated to sustainable, justifiable, and affordable solutions 
to problems. In addition, these participants feel this is a high 
priority issue worthy of their participation.
    Audubon/Dakota hopes that the Bureau of Reclamation places the same 
high priority on their approach to conducting the Red River Valley 
Water Supply Project. The Dakota Water Resources Act established a 
clear mandate and timetables. Audubon agrees that this study is 
critical and should be undertaken. In addition, we believe it should be 
undertaken using a fair and open process, and conducted with unbiased 
and scientifically sound procedures. This effort provides an 
unprecedented opportunity to resolve the longstanding issue of Red 
River Basin water supply. It is essential for the Bureau to undertake 
an impartial, peer reviewed study. The study design should be 
comprehensive and integrate the needs and alternatives with all of the 
other Red River Basin efforts being undertaken. The Bureau can obtain 
essential objectivity by utilizing existing research capability within 
the Valley such as the Red River Basin Institute, or through an 
external science review panel.
    It is unclear whether the Bureau has undertaken this study in a 
consistently fair and inclusive manner. The Specific Plans of Study as 
proposed by the Bureau of Reclamation for the Needs and Options Report 
and EIS requires the assessment of multiple variables of water need 
(i.e., existing and future MR&I; rural, aquatic environmental; 
recreation; etc.), as well as the identification of options to meet 
those needs. It is imperative that these studies, subsequent 
recommendations, and the analysis of the positive and negative impacts 
of those recommendations are conducted in an open and ``transparent'' 
process that is fair, open, and maintains scientific credibility. 
Public involvement should be facilitated and maximized, to increase the 
likelihood of subsequent acceptance and implementation. Initially, this 
is likely to be a cumbersome and slow process. However, adherence to 
sound science and stakeholder participation will save time in the long 
term, because it will help to ensure that the option(s) selected to 
meet the credible water needs of the Red River Basin are economically 
feasible, ecologically sound, and can be implemented.
    While it is premature to dictate what the preferred option(s) will 
be prior to the implementation of the Plans of Study and analysis of 
alternatives, both individually and in a range of combinations, several 
challenges exist at the outset to the effective implementation of the 
Bureau's Red River Valley Water Supply Project Needs and Options study. 
These include:

  <bullet> The region experiences temporal and spatial extremes in 
        precipitation patterns that range from severe flooding as a 
        result of spring runoff and/or heavy summer rainfall events, to 
        prolonged droughts as seen in the period between 1988-1992. 
        This exacerbates the difficulty of accurately projecting water 
        needs from both a population demand standpoint and from an 
        industrial needs perspective. The suggestion by stakeholders 
        within the Basin that some of the uncertainty associated with 
        projecting industrial needs might be ameliorated by encouraging 
        economic development that is less reliant upon water 
        consumption is worthy of consideration. Examples include 
        Microsoft Great Plains, Marvin Windows and the NDSU Research & 
        Technology Park. Audubon/Dakota also encourages and supports 
        research that helps industries find ways to reduce water use 
        such as American Crystal Sugar.
  <bullet> There is a long history of controversy and opposition 
        surrounding the alternative of transferring water from the 
        Missouri to the Red River Basin. An unbiased evaluation of all 
        available alternatives as assessed in the Plans of Studies will 
        help to evaluate and ameliorate this controversy. With regard 
        to alternatives that involve the delivery of Missouri River 
        water to the Red River Valley, the evaluation process should 
        address:

                  --the impact of water removed for the Red River 
                Valley singularly, and in combination with all of the 
                other current and projected demands and withdrawals 
                from the Missouri River;
                  --the likelihood that if drought conditions create 
                water shortages in the Red River Basin, is the Missouri 
                River Basin similarly stressed and in a low-water 
                condition;
                  --if the Red River Basin is dependent upon a water 
                supply that is outside the hydrologic basin and that 
                supply becomes impeded, do demands within the Missouri 
                River Basin (i.e., Montana, South Dakota, etc.) take 
                precedence;
                  --the assessment of interbasin transfer of water from 
                the Missouri River to the Red River Basin should 
                include an analysis of the potential risks that may 
                result from invasive species and/or foreign biota 
                transfers, and from potential habitat or wetland loss.

  <bullet> Minnesota has provided leadership through the Technical 
        Team/Study Review Team in the identification of potential 
        solutions within the Red River Basin to address both periodic 
        and extreme drought conditions. They are working on a more in-
        depth assessment of water sources that include groundwater and 
        base flow in rivers such as the Otter Tail, which could be a 
        potential source of water to the Red River Basin during drought 
        conditions.
  <bullet> The evaluation of sustainable strategies to meet Red River 
        Basin water needs should address options that may require 
        accompanying changes in current water policy. For example, the 
        Red River Valley MR&I Water Needs Assessment documented regions 
        within the Basin where 82-97% of the current permitted use was 
        in irrigation, for aquifers where rural water systems use 
        groundwater sources. In the future it may be judicious to have 
        a strategy in place that enables the transfer of these 
        ``allocations'' from irrigation to rural water systems when it 
        is necessary to meet rural water system shortages.
  <bullet> This process represents an excellent opportunity to identify 
        and implement basinwide water conservation and reuse strategies 
        that could contribute significantly to reducing water supply 
        demands in the Red River Basin. There are proven models both 
        nationally and internationally, that include incentive programs 
        for water-efficient appliances; leak and system loss detection; 
        use of ``gray water'' where appropriate; xerioscape landscaping 
        practices; and education/outreach programs. A good first step 
        may be for a delegation of city and state representatives 
        working on Red River Valley water needs to attend the American 
        Water Works Association's upcoming, ``Water Conservation 
        Workshop'', February 20-22, 2003 in Fort Lauderdale, Florida.
  <bullet> Basinwide hydrologic modeling is not yet complete, yet the 
        information is essential to realistically estimate Red River 
        flows during drought cycles (i.e., when tributaries on the 
        southeast and east in Minnesota are believed to contribute most 
        of the water). It is hoped that the Bureau will take advantage 
        of ongoing hydrologic modeling efforts in the Basin, such as 
        the Digital Elevation Modeling and Floodplain Mapping Summit 
        being coordinated by the Red River Basin Institute.
  <bullet> There are a very large number of essential stakeholders 
        involved, across state and national borders. Stakeholder 
        coordination is time consuming and challenging, but it is 
        crucial if the outputs of the RRVWSP are to obtain both 
        scientific credibility and widespread public acceptance. The 
        current composition of the Technical Team and the Study Review 
        Team for the Red River Studies represents a broad cross-section 
        of stakeholders. The diversity of stakeholder representation 
        and professional expertise across state and national boundaries 
        should be maintained.

    The process before us, as lined out in the Draft Master Plan of 
Study for the Red River Valley Water Supply Project and the EIS, is 
daunting. There are a number of complex and interrelated variables and 
unknowns, compounded by an overarching mandate to consider the 
comprehensive water quality and quantity needs of the Red River Basin, 
in the context of MR&I, aquatic environment, recreation, and water 
conservation. In addition to the needs, there are multiple potential 
and interactive alternatives to meet those needs, with a diversity of 
users and stakeholders. Water is a precious resource, and the 
strategies that evolve from the Red River Valley Water Supply Project 
to meet the needs of the Red River Basin must also be sustainable, and 
environmentally sound. Audubon/Dakota supports an open and 
scientifically credible process to ascertain needs and strategies. We 
believe that the Bureau needs to exert strong leadership to move this 
important issue forward in an open, proactive, and scientifically 
credible process. We strongly support collaboration with ongoing 
efforts at watershed-based planning to ensure that the health of the 
Red River Basin ecosystem is maintained over the long-term.

    Senator Dorgan. Ms. Thompson, thank you very much. I must 
say, when you asked that there be a comprehensive evaluation of 
the Missouri River, you certainly are getting your wish. Twelve 
years is about as comprehensive as this country can possibly 
provide.
    Ms. Thompson. We appreciate that, Mr. Chairman.
    Senator Dorgan. Let me call next on Michael Dwyer, North 
Dakota Water Users.

  STATEMENT OF MICHAEL DWYER, EXECUTIVE VICE PRESIDENT, NORTH 
                 DAKOTA WATER USERS ASSOCIATION

    Mr. Dwyer. Mr. Chairman, Senator Dorgan, I also thank you 
for the opportunity to testify, and thank you for the 
subcommittee holding this hearing. Much of what can be said has 
been said already here tonight, but I'd just like to add a few 
things.
    First of all, I'd like the committee to know that there is 
Statewide support--strong Statewide support for this issue of a 
water supply for the Red River Valley. If you look at the 
testimony that--the written testimony that I have, you will see 
that the North Dakota Water Users Association is part of the 
North Dakota Water Coalition which consists of over 30 
organizations that have come together in a united manner to 
support the Dakota Water Resources Act, and are now supporting 
this effort to address and solve the problems of a lack of 
adequate water for the Red River Valley. You'll see that all 
the cities are involved, that the rural electrics are involved, 
the business community, the agriculture community, the 
education community, the Indian community and, of course, the 
water community all participate in the Water Coalition, and we 
strongly support and are deeply concerned about this current 
effort to provide a water supply to the Red River Valley.
    Now, Warren has adequately addressed the issue of drought 
and the fact in many areas of the country, the drought that is 
being experienced is greater than the droughts that were 
experienced in the 1930's. We know that the Red River went dry 
for a continuous period in each year of the 1930's and so, if 
we experienced a drought that exceeded that benchmark, we would 
indeed have a catastrophe on our hands.
    I'd also like to mention that the Bureau does need to be 
complimented for the work that it did in the NAWS project. It 
provided meticulous attention to detail and was very thorough, 
and its work should help us withstand the litigation that is 
being filed there. But at the same time, I think the Bureau 
sometimes pays too much attention to the naysayers--the people 
that would have us do nothing in the valley--that would have us 
not provide adequate water supply. I think we need to look at 
the NAWS project as an example of, if you think that you're 
going to avert litigation by doing everything possible, look at 
the NAWS project. The Bureau, the State had done everything 
possible. I don't think there could be an organism that 
possibly could be moved in that project, yet we are being 
subject to litigation assault. Sometimes we need to move 
forward, as Genevieve said, we need to be careful. We need to 
be inclusive. But at the same time, we can't not move forward 
because there are naysayers that say there might be a problem 
or two.
    I think we also to need to look at the Corps of Engineers 
on the Missouri River as an example of long-term delay. We 
cannot afford to have another government example of that kind 
of delay.
    In conclusion, I would say that the Red River Valley needs 
a dependable water supply for the cities of Fargo, Grand Forks, 
smaller communities, rural water systems, industries, ag 
processing, manufacturing and other purposes to protect and 
enhance the economic stability and the quantity of life for the 
exploding population in the Red River Basin. The failure to 
address the water supply needs of the Red River Basin would 
jeopardize our economic stability, including industry, ag 
processing, manufacturing, and municipal growth, and will 
adversely affect the lives of people who are suffering from 
both poor quality or inadequate quantities of water and that 
also will also have a negative impact on the entire State of 
North Dakota.
    Thank you very much.
    [The prepared statement of Mr. Dwyer follows:]
    Prepared Statement of Michael Dwyer, Executive Vice President, 
                  North Dakota Water Users Association
                            i. introduction
    Senator Dorgan, thank you for the opportunity to talk to you today 
about the critical water needs of the Red River Valley. My name is 
Michael Dwyer and I am the Executive Vice President of the North Dakota 
Water Users Association. I am speaking today on behalf of grassroots 
water users and members across North Dakota. We currently have more 
than 1,000 members representing individuals, businesses, water 
districts, irrigators and companies across our great state of North 
Dakota.
    The North Dakota Water Users has joined together with other 
statewide and regional organizations to form the North Dakota Water 
Coalition, which is a coalition of regional and statewide organizations 
in North Dakota that have come together for the purpose of completing 
North Dakota's water infrastructure for economic growth and quality of 
life. We are especially concerned about the water supply needs of the 
Red River Valley.
    The North Dakota Water Coalition considers the water supply needs 
of the Red River Valley to be a critical priority for all of North 
Dakota. The Water Coalition includes the following groups:

Associated General Contractors of North Dakota
BOMMM Joint Water Resource Board
Cass County Joint Water Resource Board
City of Bismarck
City of Devils Lake
City of Dickinson
City of Fargo
City of Grand Forks
City of Minot
City of Williston/Upper Lake Sakakawea Planning Co.
Devils Lake Basin Joint Board
Eastern Dakota Water Users
Economic Development Association of ND
Garrison Diversion Conservancy District
Greater North Dakota Association
ND County Commissioners Association
North Dakota Association of Rural Electric Coop.
North Dakota Atmospheric Resource Board
North Dakota Education Association
North Dakota Farm Bureau
North Dakota Farmers Union
North Dakota Irrigation Caucus
North Dakota League of Cities
North Dakota Municipal Bond Bank
North Dakota Rural Water Systems Association
North Dakota State Water Commission
North Dakota Water Resource Districts Association
North Dakota Water Users Association
North Dakota Weather Modification Association
Red River Joint Water Board
Souris River Joint Water Resource Board
Southwest Water Authority
Three Affiliated Tribes
West River Joint Water Board

    Government does a better job of responding to disasters than it 
does in preparing for those situations in advance. Those of us involved 
in water in North Dakota can easily see that we are facing potential 
critical water shortages in the Red River Valley in the future. We also 
can see those areas in the Red River Valley where the water quality is 
not fit to drink. It is for these reasons that there is such strong and 
broad-based support in North Dakota for the Dakota Water Resources Act, 
and the Red River Valley water supply component of that Act.
                         ii. drought readiness
    Unless you have chosen to put your head in the sand, one cannot 
help recognize that many areas of our country have suffered drought 
conditions over the past few years far greater than the drought 
conditions of the 1930's. During the 1930's, the Red River itself, 
which is the source of water for many of the water supply needs of the 
Red River Valley, was completely dry for several extended periods of 
time. Not a single drop of water was flowing.
    Listen to a recollection of former North Dakota Governor William 
Guy: If you were to look at the Red River near the water plant in the 
1930's, you would wonder how they ever made the water fit to drink. The 
searing hot drought hung heavily over the Upper Midwest through the 
entire decade of the 1930's. The Geological Survey records say that the 
murky Red River ceased to flow at Fargo for a period in every year of 
that decade. The driest year was 1936 when the Red River stopped 
flowing for 166 continuous days. Cars were not washed. Lawns were 
unsprinkled. There was talk of returning the Fargo Sewage Plant 
discharge to the river above the city water intake. Moorhead was 
drawing all of its water from wells east of the city and their tap 
water tasted good. With a population of around 25,000, Fargo's water 
situation was desperate. . . . Today both Fargo and Moorhead draw their 
water from the Red River while their combined population has increased 
five fold from the dry 1930's. Industries not even dreamed of 65 years 
ago now use copious amounts of Red River water. It is easy to 
understand why the Garrison Diversion Project to bring Missouri River 
water east to the Red River Valley has been on the minds of thinking 
people for more than 50 years.
    When you consider that some areas are experiencing drought 
conditions worse than the 1930's, and you look at the drought 
conditions in the Red River Valley in the 1930's, it is not a question 
of whether we are going to face those conditions in the future, but it 
is only a matter of when. To not be prepared to address such conditions 
when we know they will occur is extremely poor government. Rather than 
responding to a disaster, we should prepare for a certain future, and 
leave the legacy for our children, grandchildren, and great-
grandchildren, that we looked into that past, and learning from the 
past, satisfied the water supply needs of the future. That is why we 
have so strongly supported the Dakota Water Resources Act, and the 
provisions of that Act that address the water supply needs of the Red 
River Valley.
    iii. red river valley studies and environmental impact statement
    It has been two years since the passage of the Dakota Water 
Resources Act, and little of the work called for under that Act to 
address the water supply needs of the Red River Valley has been 
completed. We applaud the Bureau of Reclamation's thoroughness and 
meticulous attention to details in its work related to the Northwest 
Area Water Supply Project (NAWS), particularly as it relates to the 
environmental assessment and the Finding Of No Significant Impact 
(FONSI) on that project. That project will likely be able to withstand 
the legal challenges that it is facing because of the careful approach 
utilized by the Bureau of Reclamation. We understand that thoroughness 
and carefulness must also be applied by the Bureau of Reclamation to 
the Dakota Water Resources Act, and the studies for the water supply 
needs of the Red River Valley called for under that Act. Yet, we must 
also not shirk our duty due to the threats of nay sayers that would 
prefer us to do nothing. We must move forward in a vigorous and 
aggressive matter, recognizing that the water supply needs of the Red 
River Valley are North Dakota's most critical long-term water supply 
need.
    If you review the demographics of our state, it is easy to see that 
the Red River Valley will continue to grow in population. It is 
estimated that the city of Fargo itself will be a city of over 20,000 
within the next 20 years. Whatever the exact population turns out to 
be, we do know that the population of the valley, and particularly the 
city of Fargo, is expanding by leaps and bounds.
    We cannot afford to have another government example of long-term 
delay and inaction. The Corps of Engineers is entering its fourteenth 
(14th) year of studying the Missouri River mainstem dam operations 
master manual. The Bureau of Reclamation must not impose a similar 
travesty on the people of North Dakota or the Congress, which 
authorized the Dakota Water Resources Act. A management system must be 
developed which allows these important studies to move forward and be 
completed, so that the Congress and the state of North Dakota can take 
the next step of implementing measures to address the long-term water 
supply needs of the Red River Valley.
                             iv. conclusion
    Benjamin Franklin once said ``When the well is dry, we know the 
worth of water''. North Dakotans cannot afford to wait until the well 
is dry before we address the water supply needs of the Red River 
Valley. As I said at the beginning of my testimony, government does a 
better job of responding to disasters than preparing for the future, 
but we know the worth of water, and we must prepare for the future.
    On behalf of the North Dakota Water Coalition, and all of the 
members and organizations participating in that Water Coalition, we do 
not want to put undue focus on the delays of the last two years. 
However, we would like to focus on the critical nature of this issue, 
and urge the committee in partnership with the Bureau of Reclamation 
and the state of North Dakota, to assist in making sure that the next 
two years are fruitful in terms of effort in completing the studies 
that are necessary before long-term measures to address the water 
supply needs of the Red River Valley can be implemented.
    The Red River Valley needs a dependable water supply for the cities 
of Fargo, Grand Forks, smaller communities, rural water systems, 
industry, ag processing, manufacturing, and other purposes, to protect 
and enhance the economic stability and quality of life for the 
exploding population in the Red River Basin. Failure to address the 
water supply needs of the Red River Basin will jeopardize our economic 
stability, including industry, ag processing, manufacturing, and 
municipal growth, and will adversely affect the lives of people who are 
suffering from both poor quality or inadequate quantities of water, as 
well as the entire state of North Dakota.
    Thank you very much.

    Senator Dorgan. Mr. Dwyer, thank you very much.
    I should say that while I have great angst about the time 
line here, I indicated Ms. Bach is a dedicated public servant. 
The Bureau was very helpful on NAWS, no question about that, 
and I think the suit that's been filed by Canada has no merit.
    So if anybody is within listening distance that can dismiss 
that, feel free to do it, but I think it has no merit because 
the Bureau did what it should have done at the front end of 
this process. I perhaps should have said that at the start.
    But coming back to this issue of the Red River Valley, my 
great concern is this potential spreading of the drought could 
be, as--you used the word catastrophe, Mr. Dwyer--I think it 
could be catastrophic for the Red River Valley. This is the one 
area of the State that is growing, growing very rapidly. I will 
just give you a couple statistics. The demographer for the 
State says that in 1980, we had 652,000 citizens. He says in 
the year 2020, we're going to have 651,000 citizens. In other 
words, what he's saying in 40 years, we'll have about the same 
number of people, except Fargo will have 60,000 more people, 
and Bismarck will have 20,000 more people. Grand Forks and 
Minot will have about the same population. So, the State will 
have about the State population. The four largest cities, two 
of them will be unchanged, two of them will be up a combined 
80,000, which means the remaining 300,000 people which live in 
the 95 percent of the State, there will be a 25 to 30 percent 
reduction in population in the next 30 to 40 years. Pretty 
ominous. So facing all these challenges, and understanding that 
the one portion of the State that has really grown is 
particularly Cass County, particularly in the Red River Valley, 
but that growth is dependent on assured long-term supply of 
water and the potential of a drought spreading over a period of 
years causing catastrophic economic consequences here in the 
Red River Valley. I think is appropriate for us to say wait a 
second, we better get moving, we better get something done. 
This ought not be business as usual. And that's the point I'm 
making this evening.
    Mr. Jamison, you've heard the discussion about missed 
deadlines. I ask the question, was there kind of a fan dance 
here between the State, the Bureau and the Conservancy District 
trying to figure out who was supposed to do what and does that 
take too long, or was this just being extra careful?
    Mr. Jamison. Mr. Chairman, thank you for the question. It 
took too long, obviously. Who's to blame? That would be an easy 
game to get into.
    Let me discuss the process a little bit that has frustrated 
me. In negotiating contracts, somebody usually starts the 
process by putting a piece of paper on the table. Normally, we 
would assume that that piece of paper has been cleared, and is 
ready to negotiate on it. In too many cases, we have responded 
to the piece of paper, or an initial draft of an agreement, 
commented on it, or comments have been accepted or largely 
accepted only to find out that the basic piece of paper that we 
started negotiating on has been changed again, or--changed by 
some other office. And I think, and maybe I'm a part of the 
problem because I had so many years of Federal service. As you 
know, I was a Federal official, and I was sued by environmental 
organizations, many lawsuits, so I'm very familiar with this 
process. Maybe too familiar. But one of things that tends to 
happen, not just from the Bureau of Reclamation and lot of 
Federal agencies, I have worked for several, is you're 
negotiating with a back bench that you can't see. It's not the 
person you're sitting across the table with, but the person--
we've sat across the table. People we sat across from table 
from are honorable and worked very well with us. What happens 
to them is that somebody on the back bench someplace in another 
office then pulls the paper back, changes it and leaves the 
untoward situation of the person your negotiating with have to 
come back and start the process all over again.
    I'm a firm believer that to make an efficient organization 
people to have to be personally accountable. Personally 
impassioned about something, and government is another big 
organization, but it's not limited to government. It can happen 
to any of us. But until you designate somebody, that person 
feels it's personally his or her responsibility to make it 
happen in a reasonable time frame, the system will take over, 
and you will just get eaten up slowly but surely by review 
after review after review. And what I think is needed is a 
passionate person to be dedicated to this job, and to have the 
authority and the chutzpa, if you will, to go back to the back 
bench and say look, we're already through that.
    Senator Dorgan. Mr. Jamison, you have been at this a long 
time. Tell me what you think the time estimate is going to be--
what is the real time estimate of when folks here in the Red 
River Valley might expect a needs assessment to be completed, 
and then expect action to take to respond to the needs 
assessment?
    Mr. Jamison. In my judgment, 2 years would be the time 
frame for a study. Now, there are considerable challenges. Ms. 
Thompson has indicated a number of interesting things that we 
should look at and we should, but I still think that the 
engineering work can be done in 2 years. Now it will require 
close cooperation. It will require multitasking. We'll have to 
do several things at once. We can't stop because somebody 
writes us a nasty letter, and we go focus on that for a while. 
We have to keep on going on a lot of different fronts at one 
time. But from an engineering prospective we should be able to 
get the needs and options study and an analysis of alternative 
studies in 2 years. Certainly the environmental impact 
statement that accompanies that should follow closely behind 
that.
    Senator Dorgan. Mr. Dwyer, I want to ask you and Ms. 
Thompson both about the subject of conservation because in Ms. 
Thompson's testimony, she talked about conservation a fair 
amount and it is the case, is it not, that there are several 
ways to develop new supplies of water. One is to find a new 
supply of water and, second is to conserve water that would 
otherwise have been used, provided that you don't conserve it 
at the expense of your economy. Tell me about conservation and 
your view of conservation as part of this process.
    Mr. Dwyer. Senator Dorgan, I do disagree with Ms. 
Thompson's statement that we have to look for industry that is 
less dependent on water. I think we ought to look for all 
industry, and there are some industries that are less dependent 
on water, and there is some industry is water-intensive and we 
ought not to say well, we are not going to try to develop and 
solicit those industries that use a lot of water because that's 
only taking half of the whole. I think we need to develop every 
possible opportunity that we can in our economy because we need 
that. Now, certainly we shouldn't encourage any wasteful use of 
water. Certainly we ought to encourage conservation that 
involves not wasting water, but it does not, it does not 
include limiting our opportunities.
    Senator Dorgan. Ms. Thompson, would you agree that getting 
it right--we have heard that phrase several times--getting 
right has several different meanings? One is doing it the right 
way, crossing all the t's, dotting all the i's, making sure you 
covered it all. But, second, getting it right would also mean 
getting these things done in time that Fargo and Grand Forks 
and the Red River Valley not be hung out to dry with the 
encroaching drought that could very well be catastrophic to 
their economies, having the opportunity to put in place some 
kind of mechanism to assure a water supply before that would 
happen. Is that also part of getting it right in your 
assessment?
    Ms. Thompson. I think they're both certainly elements of 
getting it right. I think on the former, the idea is if the 
plans of study and the overlap between them are undertaken so 
they're peer-reviewable, then no one can come back later and 
say in a letter or a dart or what have you that was done under 
cloak of darkness, that was a relationship that was 
inappropriate. If those studies are peer-reviewable, i.e., you 
know, through an institute, or we have a great university 
system in the Basin--if the studies themselves stand alone, 
then that part of the crossing of the t's and the i's obviates 
subsequent lawsuits because they've already taken all of those 
variables.
    The other part of getting it right, I think, does tie into 
at least my interest in looking at conservation as one avenue. 
North Carolina was faced until quite recently with a very 
significant drought, and they experienced a 20 percent 
reduction in demand just based on, you know, conservation 
measures that the communities could implement. So, as we look 
at some of the options, you know, can we do different lawn 
kinds of care, a whole host of different things.
    My interest, I think, is in getting those conservation 
strategies that can address the short-term. Even, no matter 
what option is taken, we're looking at the implementation time 
frame that you were asking about. So can we have a first tier? 
It's my understanding when you look at ground water based 
irrigation in the Basin. Maybe, I think there is precedence for 
farmers to have a drought insurance program in areas of severe 
drought that ensure irrigation allotment can go to 
municipalities in payment of a drought insurance payment. It's 
my wish that through this process we can identify not just one 
avenue, but a whole host of complementary avenues that are 
either greater or lesser. That might be one.
    Again, the interest, my understanding that east of the Red, 
rather than west of the Red, that's where a lot of the water 
stays when we start to dry out on the North Dakota side, so I 
think it's identifying, and maybe prioritizing in a temporal 
way the things that can be implemented sooner, the things that 
can be, or should be implemented on a longer scale.
    Senator Dorgan. Let me describe why I wanted to hold this 
hearing now. I think the Bureau has some very dedicated 
employees. I have seen a lot of the good work they've done. I 
think the Conservancy District has good leadership. I have 
worked with Mr. Jamison for a long time. I have admiration for 
Mr. Frink and the folks at the State Water Commission. So we 
have a number of different entities involved in this process, 
and I have respect for all of them. But it seems to me that you 
have to have some markers here in this process, and what I want 
to do is set the marks here to figure out where we are going 
and how we are going to get there and when we are going to get 
there. And I held a hearing on trade about 10 months ago on 
international trade issues and had Ambassador Johnson in front 
of me. He told me what he was going to do. I said I tell you 
what, I'm going to hold another hearing 6 to 8 months from now, 
and you're going to come up here and sit at this table and we 
are going to find out what you've done. Well, I called him 2 
weeks ago and said you don't have to do that hearing because 
you did exactly what you told me you were going to do. But that 
happened, I'm convinced, not because he was spending a lot of 
time trying to figure out how he should do it, but because he 
knew he was going to have to be called to a hearing and answer 
to it. And so he got it done.
    I want the same thing to happen with this project. The 
Congress with great angst passed an authorization bill. It's 
not perfect, and there are people who wish it had never passed. 
But in that authorization bill, a significant piece, $200 
million, and a process which involved the partnerships 
determined how we were going to assess the needs of the Red 
River Valley and then go about meeting those needs. That 
process is not an open-ended process. It's not out in Never-
Never Land. And the encroaching drought, I think, ought to 
persuade all us there is some urgency here.
    So, what I'm going to do with this hearing is set some 
markers. I know there are many people here from water 
commissions and boards throughout the region. I'm going to ask 
any of you who wish, you want to have a statement from your 
particular water board or commission as a part of this 
permanent record, feel free to submit that statement to my 
office or the Senate Energy Committee within 2 weeks. We'll 
make that part of this hearing, and my hope is that this 
hearing can establish a record that we can measure against next 
year, the year after and the year after that as we move down 
this road because this problem is one that begs or a solution, 
and it, too, has been going on for some long, long while. We 
have a Phase I study, a Phase II study, and now we are going to 
duplicate part of that. I understand why all this is going on. 
But, still and all, in the end we need to address the 
proposition that some day in some way this vibrant part of the 
State's economy could find itself short of water or out of 
water. If that happens, it will be ruinous to the economy in 
this part of North Dakota, and we should not let that happen. 
So I want to thank the folks who have presented testimony this 
evening, and we will use the results of this hearing and all 
that you submit between now and the final two weeks from 
various parts of our State as the marker by which we will try 
to measure next year and the year after that what is happening 
here to satisfy the needs--the water needs of the Red River 
Valley that's contemplated in the authorization bill that 
Congress passed two years ago.
    Thank you all for attending. This hearing is adjourned.
    [Whereupon, at 8:35 p.m. the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                     Chamber of Commerce of Fargo Moorhead,
                                       Fargo, ND, December 7, 2002.
Senator Byron Dorgan,
U.S. Senate, Hart Office Building, Washington, DC.
    Dear Senator Dorgan: As you know, the Chamber of Commerce of Fargo 
Moorhead is a bi-state, regional chamber of commerce with more than 
1,600 member firms that collectively employ more than 66,000 people in 
our region. Our mission is unifying and advancing business and 
community interests in our region.
    This letter is written to thank you for conducting a field hearing 
on Monday, December 9th in Fargo to examine the Red River Valley's 
water needs and the U.S. Bureau of Reclamation's lack of progress on a 
series of water projects authorized by the Dakota Water Resources Act, 
which you sponsored and which our Chamber has strongly encouraged and 
supported in the past.
    As you know, adequate, available and carefully managed water 
resources are important to citizens, commerce and communities 
throughout our region and in fact across our entire nation. Periods of 
both drought and deluge have negatively impacted our community and 
region in the past, adversely affecting our economy, community 
infrastructure and daily life. They have also had a negative impact on 
federal, state and local government operations and budgets.
    We appreciate your using your position as Chairman of the U.S. 
Senate Energy and Natural Resources Subcommittee on Water and Power to 
conduct this field hearing and receive testimony from a variety of 
entities that are concerned about water resources and water resource 
issues in the Red River Basin. We also appreciate your efforts to work 
with the U.S. Bureau of Reclamation to encourage the Bureau to improve 
the Red River Valley's water supply in the future.
            Warm regards always,
                                           David K. Martin,
                                           Public Affairs Director.
                                 ______
                                 
                                   Moorhead Public Service,
                                   Moorhead, MN, December 20, 2002.
Hon. Byron Dorgan,
U.S. Senate, Hart Office Building, Washington, DC.
    Dear Senator Dorgan: Thank you for conducting the field hearing on 
Monday, December 9, 2002, in Fargo, to examine the Red River Valley's 
water needs and the U.S. Bureau of Reclamation's lack of progress on a 
series of water projects authorized by the Dakota Water Resources Act. 
The City of Moorhead believes that addressing the water resource needs 
of the Red River Valley is extremely important for the future economy 
of this region.
    You mentioned at the December 9 hearing that you were accepting 
statements for the record for the Red River Valley water needs. 
Attached is the presentation from Mayor Mark Voxland of the City of 
Moorhead, along with a resolution from the Moorhead City Council which 
address the U.S. Bureau of Reclamation's Red River Valley Supply 
Project. Moorhead supports having Minnesota communities in the Red 
River Valley included in future studies and projects for water resource 
needs addressed in the Dakota Water Resources Act.
    Moorhead is working very hard to ensure a sufficient supply of 
water for its economy well into the future. Please enter Mayor Mark 
Voxland's presentation and the Moorhead City Council's resolution into 
the record. We appreciate your work as chairman of the U.S. Senate 
Energy and Natural Resources Subcommittee on Water and Power. We also 
appreciate that you conducted the field hearing and received 
testimonies on the issue of water resources in the Red River Valley.
    Thank you for all you do for this region.
            Sincerely,
                                     Bill Schwandt, PE MBA,
                                                   General Manager.
Presentation for the Red River Valley Water Supply Project Environment 
                    Impact Statement Scoping Meeting

                            October 28, 2002

    To participants of the U.S. Bureau of Reclamation's Red River 
Valley Water Supply Project. My name is Mayor Mark Voxland. I am the 
Mayor of Moorhead, Minnesota. I would like to thank you for the 
opportunity to speak to you this evening on an issue that is very 
important to the city of Moorhead. We would like to have the comments 
and the resolution that I will provide submitted for your consideration 
as you work on this Environmental Impact Statement of the Red River 
Valley Water Supply Project.
    I read on the front cover of the Red River Valley Water Needs 
Assessment, Phase II, the mission of the U.S. Bureau of Reclamation. 
That mission is to, ``manage, develop, and protect water and related 
resources in an environmentally and economically sound manner in the 
interest of the American public.'' It disturbs me when I read through 
the Volume 1, Issue 1, Red River Valley Water Supply Project 
Environmental Impact Statement Newsletter, November 2002, and find that 
any reference to the previously included communities in Minnesota are 
absent.
    It is my understanding that Minnesota communities of Moorhead, 
Breckenridge, and East Grand Forks were included in the U.S. Bureau of 
Reclamation, Red River Valley Water Needs Assessment, Phase II, 
Appraisal of Alternatives to Meet Project Shortages report. On Page 2-
10, in Table 2.6, ``Shortages for Cities, Industries and Rural Systems 
in the Red River Valley,'' included Moorhead with the reference to a 
1934 shortage and a cumulative 54-year shortage during the study period 
of 24,870 acre-feet.
    Moorhead is working very hard to supply water for its economy well 
into the future. In 1995, Moorhead completed a new water treatment 
facility that strategically shifted its resources away from taking 
water from our Buffalo Aquifer in order to reserve that water for 
periods of long-term drought. Therefore, Moorhead takes approximately 
80 percent of its water from the Red River of the North. Moorhead has 
worked extremely hard to develop measures to protect he sensitive 
Buffalo Aquifer. Moorhead, like the U.S. Bureau of Reclamation, is 
looking 10 years into the future when Moorhead has grown and there is 
more demand for its water apply resources.
    The Phase II report shows significant shortages under either the 
U.S. Bureau of Reclamation's or Moorhead's and other participants' year 
2050 projections. This is the concern of Moorhead.
    The significant concern of Moorhead, at this time, is the fact that 
Moorhead and other Minnesota communities could be eliminated from 
further studies of the Garrison Diversion Project. Moorhead believes 
that it would be very unfortunate when the Missouri River project is 
finally completed and Moorhead may not be able to receive water from 
that project for future economic growth of all Red River Valley 
communities on both sides of the Red River.
    As I mentioned previously, at the present time Moorhead has enough 
water for normal growth, even in a drought situation because of the 
strategic efforts that will continue into the future. Moorhead, 
however, does believe that future economic development efforts to 
attract business and industry into our community will require water 
supplies that are greater than what we currently have. The Missouri 
River water is a water supply necessity for Moorhead.
    Finally, Moorhead shares the Red River of the North as a water 
supply resource with other Minnesota and North Dakota communities. The 
city of Moorhead is very concerned about water resources for the 
existing and future municipal and industrial water uses. We have plans 
in place to use water in the most efficient manner. Moorhead is part of 
the Red River Valley. Moorhead believes that it, and other Minnesota 
Red River Valley communities, should be included in the Red River 
Valley Water Supply Project and other studies subsequent to studies 
that are being proposed.
    Therefore, as the Mayor of Moorhead and along with the Moorhead 
City Council, we request that the U.S. Bureau of Reclamation, once 
again, include the Minnesota communities in the Red River Valley Water 
Supply Project. I have a resolution from the Moorhead City Council and 
me, which I would like to submit to you.
    Once again, thank you for the opportunity to speak to you about 
this issue. We ask that you will take our comments very seriously. If 
there are any questions or concerns, I encourage you to please contact 
me.

                               RESOLUTION

    WHEREAS, the development of a reliable water supply for the Red 
River Valley has been a subject of great interest to Red River Valley 
residents of both eastern North Dakota and western Minnesota, 
government agencies, and entities concerned with water management and 
development; and
    WHEREAS, although rivers in the Red River Valley are prone to 
flooding and excessive runoff, there are also periods of low flow and 
drought conditions; and
    WHEREAS, Moorhead and other Minnesota communities in the Red River 
Valley are vital to the success of the region and provide resources for 
the regional economy; and
    WHEREAS, in 1994, the U.S. Bureau of Reclamation began a planning 
study called the Red River Valley Water Needs Assessment to investigate 
and evaluate existing and future municipal, rural, and industrial water 
use in the Red River Valley communities; and
    WHEREAS, from 1994 to 2000, Moorhead, East Grand Forks, and 
Breckenridge were included in the study; and
    WHEREAS, Phase II of the Red River Valley Water Needs Assessment 
included water needs and several alternatives to meet the needs of both 
eastern North Dakota and western Minnesota communities in the Red River 
Valley; and
    WHEREAS, the Dakota Water Resources Act of 2000 (DWRA) was signed 
into law on December 21, 2000, which authorizes the Red River Valley 
Water Supply Project; and
    WHEREAS, Section 8 (b)(1) of Public Law 106 554 states ``The 
Secretary of the Interior shall conduct a comprehensive study of the 
water quality and quantity needs of the Red River Valley in North 
Dakota (emphasis added) and possible options for meeting those needs''; 
and
    WHEREAS, a 2002 Memorandum of Understanding was developed between 
the U.S. Bureau of Reclamation and the State of North Dakota for 
implementation of the DWRA; and
    WHEREAS, Minnesota cities in the Red River Valley were removed from 
the Red River Valley Water Supply Project in both the DWRA and in the 
2002 Memorandum of Understanding; and
    WHEREAS, Moorhead and other communities have been asked to provide 
comments at the Public Scoping meeting in Fargo, North Dakota, on 
October 28, 2002, to discuss the Red River Valley Water Supply Project 
Environmental Impact Statement; and
    WHEREAS, Moorhead shares the Red River as a water supply resource 
with other Minnesota and North Dakota communities; and
    WHEREAS, the City of Moorhead is very concerned about water 
resources for the existing and future municipal and industrial water 
use in the city; and
    WHEREAS, the City of Moorhead believes it and other Minnesota Red 
River Valley communities should be included in the Red River Valley 
Water Supply Project, and
    WHEREAS, the Eastern Dakota Water Users Group has similar concerns 
regarding Minnesota being removed from the Red River Valley Water 
Supply Project.
    NOW, THEREFORE, BE IT RESOLVED that the Mayor and City Council of 
the City of Moorhead request the U.S. Bureau of Reclamation to, once 
again, include the Minnesota communities in the Red River Valley Water 
Supply Project.

    PASSED by the City Council of the City of Moorhead this 21st day of 
October, 2002.

                                           APPROVED BY:

                                               /s/ Mark Voxland
                                           ----------------------------
                                               ----
                                           MARK VOXLAND, Mayor
ATTEST:

    /s/ Kaye E. Buchholz
----------------------------------
KAYE E. BUCHHOLZ, City Clerk

(SEAL)
                                 ______
                                 
          Statement of Gary L. Pearson, D.V.M., Jamestown, ND
    According to the December 4, 2002, news release regarding the 
Senate Committee on Energy and Natural Resources Subcommittee on Water 
and Power's December 9, 2002, hearing on ``Red River Valley Water 
Needs,'' the stated purpose of the hearing was:

          ``To examine the Red River Valley's water needs and the U.S. 
        Bureau of Reclamation's lack of progress on a series of water 
        projects authorized by the Dakota Water Resources Act.''

    Subcommittee Chairman Senator Byron Dorgan of North Dakota was 
quoted in the release as stating that:

          ``The Bureau of Reclamation is failing to meet its obligation 
        to improve the Red River Valley's water supply. Today, the 
        Bureau is a full four years behind schedule on the Red River 
        Valley studies it is required to complete.
          The delays by the Bureau will not go unchallenged. In this 
        hearing, I want to hold the Bureau's feet to the fire and get 
        action on these Red River Valley water studies.''

    It may be appropriate, therefore, to review the history of the Red 
River Valley water studies to which Subcommittee Chairman Dorgan refers 
in order to understand better some of the factors contributing to their 
delay.
         misinformation regarding red river valley water needs
    One of the principal factors contributing to delays in the 
identification of Red River Valley water needs and alternatives for 
meeting those needs has been the frequent dissemination of 
misinformation regarding those needs and alternatives by proponents of 
the Garrison Diversion Unit and other North Dakota water development 
interests.
The Promise of Water for the Red River Valley
    After the Dakota Water Resources Act of 2000 was passed in the 
closing minutes of the 106th Congress as a rider on the $450 billion 
Fiscal Year 2001 Labor and Health and Human Services Appropriations 
bill, North Dakota Senator Kent Conrad declared that:

          ``The DWRA was the first Garrison plan written by North 
        Dakotans for North Dakotans and is a realistic plan to complete 
        this project.'' (Conrad, 2001)

    Six months later, a story in The Jamestown Sun reported:

          ``Fargo and the rest of the Red River Valley have been 
        waiting 50 years for Garrison Diversion to bring Missouri River 
        water east.'' (Cole, 2001)

    It should be noted, however, that the Garrison Diversion Unit 
authorized in 1965 included, in addition to 250,000 acres of federal 
irrigation development, municipal water supplies for 14 towns in 
eastern North Dakota, but the only one in the Red River Basin was 
Pekin, with a 1970 population of 120, located near the Sheyenne River 
in northeastern North Dakota. The original Garrison Diversion Unit did 
not include water supplies for Fargo or any other cities in the Red 
River Valley. In fact, it was only after a lawsuit by the National 
Audubon Society forced a reevaluation of the project in 1977 that Fargo 
(but not Grand Forks) was eventually identified as a ``potential 
municipal water user'' from the project.
    The Garrison Diversion Unit Reformulation Act of 1986 authorized a 
``Sheyenne River water supply and release facility . . . capable of 
delivering 100 cubic feet per second of water for the cities of Fargo 
and Grand Forks and surrounding communities,'' but the authorization 
was not based on a comprehensive study of municipal water needs and 
options for meeting those needs, or the feasibility of such a facility.
    It was not until 1993 when, at the request and with the agreement 
of the Governor of North Dakota and the North Dakota Congressional 
Delegation (Schafer et al., 1993), the Commissioner of the Bureau of 
Reclamation established a North Dakota Water Management Collaborative 
Process involving all stakeholders to identify the contemporary water 
needs of the State that a comprehensive study of the future water needs 
of the Red River Valley was initiated. However, when it became evident 
that the Collaborative Process would not endorse the completion of the 
Garrison Diversion project to deliver Missouri River water to the Red 
River Valley, the North Dakota Congressional Delegation withdrew from 
the process, stating that:

          ``We need to agree on proposed changes to the current 
        authorized Garrison Diversion Project in North Dakota . . .
          . . . we intend to make a fresh start to collaborate in a way 
        that produces concurrence among all of the interests in North 
        Dakota. We intend to produce consensus legislation that we will 
        introduce in Congress to modify the Garrison Diversion Unit 
        Reformulation Act.'' (Dorgan et al., 1994)

    Although the North Dakota Water Management Collaborative Process 
collapsed when the North Dakota Congressional Delegation withdrew in 
1994, the Bureau of Reclamation, with the active participation of a 
representative of the National Wildlife Federation representing other 
stakeholders on the study's Technical Steering Team, continued the 
appraisal level Red River Valley Water Needs Assessment study that had 
been initiated under the Collaborative Process.
The Debt Owed to North Dakota
    North Dakota's political leaders frequently dismiss the absence of 
a demonstrated need for additional water supplies for cities in the Red 
River Valley by claiming that, in equity, the State is owed a Red River 
Valley water supply project in payment for lands flooded by the Oahe 
and Garrison dams on the Missouri River, e.g.:

          ``When the Garrison Dam and Reservoir were built to provide 
        downstream protection and to safeguard navigation, the state 
        lost 500,000 acres of prime farm land, a major part of its 
        economic base.'' (Dorgan, 1998)

    However, of the 462,000 acres of land in North Dakota actually 
inundated by the Oahe and Garrison reservoirs, only 108,300 acres were 
cropland (Fish and Wildlife Service, 1952; Bureau of Sport Fisheries 
and Wildlife, 1960). The impact on North Dakota's economic base can be 
appreciated by considering that the entire 551,706 acres acquired for 
the reservoirs is only 1.2 percent of the total land base of the State. 
Moreover, North Dakota already receives $130,200,000 annually in flood 
control ($1,400,000), hydropower ($80,300,000), water supply 
($28,500,000) and recreation ($20,000,000) benefits from the Pick-Sloan 
Missouri Basin Program under which the Garrison and Oahe dams and the 
Garrison Diversion Unit were authorized (Bureau of Reclamation, 1996). 
This is equivalent to an average of over $1,200 per acre per year for 
the 108,300 acres of cropland inundated in North Dakota by the Garrison 
and Oahe reservoirs. These annual benefits are 30 percent more than the 
1997 market value of the State's best agricultural land in the Red 
River Valley (MacDonald, 1998).
The Imminent Threat of Drought
    The Subcommittee has been told that a drought even more severe than 
the 1930s ``Dust Bowl'' is imminent and that any delay in completing 
studies of Red River Valley water needs will be seen as deadly to the 
people and would shut down the economy of the Valley and destroy their 
hopes for the future. Such dire predictions certainly warrant careful 
examination.
    First, it should be noted that the Governor of North Dakota, the 
North Dakota Congressional Delegation, the State Water Commission, the 
Garrison Diversion Conservancy District, the North Dakota Water Users 
Association and other water development interests who are calling for 
acceleration of the Red River Valley Water Supply Study and Red River 
Valley Water Supply Project Environmental Impact Statement because of 
the urgency of protecting cities in the Valley from the impacts of 
drought are the same ones who are promoting the construction of an 
outlet from Devils Lake to the Sheyenne River, a tributary of the Red 
River, on the assumption that the record levels of precipitation that 
occurred from 1993 to 1999 will continue until at least 2014 (U.S. Army 
Corps of Engineers, 2002; Schmidt, 2002). Obviously, it is not credible 
to promote a Red River Valley Water Supply Project on the urgency of 
impending drought while at the same time promoting a Devils Lake outlet 
on the urgency of on-going flooding.
    Second, Fargo has an allocation of 56.1 percent, and Grand Forks 
has an allocation of 31.3 percent, of the water in Lake Ashtabula, 
which was constructed on the Sheyenne River in 1951 (Bureau of 
Reclamation, 1998). The reservoir has a total storage capacity of 
68,000 acre-feet at a pool elevation of 1266.0 feet above mean sea 
level, with 38,000 acre-feet of storage between a minimum pool 
elevation of 1257 feet and 1266 feet (Bureau of Reclamation, 1998). 
Therefore, Fargo has an allocation of at least 21,000 acre-feet and up 
to 38,000 acre-feet of water from Lake Ashtabula. This would meet 
Fargo's current water demands for 1.5-2.5 years if there were no 
additional flows in either the Red or Sheyenne rivers--something that 
did not occur even in the 1930s. However, in the 50 years since the 
reservoir was constructed, Fargo has tapped its Lake Ashtabula supply 
only a few times to meet brief minor shortages, such as occurred 
occasionally during the 1988-1992 drought, and Grand Forks has never 
used its allocation.
    Third, information from the Bureau of Reclamation's appraisal level 
Red River Valley Water Needs Assessment shows that, even if Fargo's 
population should double to 192,000 (which is not expected to occur 
until 2050) and four new hypothetical high water use agricultural 
processing industries were to locate in the Red River Valley, 
significant municipal water shortages would not develop unless another 
1930s style drought were to occur (Bureau of Reclamation, 2000). 
Moreover, implementation of drought contingency measures could reduce 
the projected 115,000 acre-feet year 2050 Red River Valley total 
municipal and industrial water demand by at least 30 percent, or 38,000 
acre-feet, which would be more than sufficient to eliminate the 32,650 
acre-feet greatest annual municipal shortages even in another 1930s 
style drought (Bureau of Reclamation, 2000).
    Fourth, if a severe drought is, in fact, imminent, even if 
construction of a Red River Valley Water Supply Project were begun 
immediately, it would not be completed in time to avoid the need to 
implement water conservation and drought contingency measures. And, as 
information from the Bureau's Red River Valley Water Needs Assessment 
shows, implementation of those measures would eliminate the need for a 
Red River Valley Water Supply Project.
    Consequently, not only is there no credible evidence that a severe 
drought is imminent in the Red River Valley, but the available evidence 
shows that the implementation of water conservation and drought 
contingency measures would be sufficient to eliminate any significant 
impacts on the people or the economy of the Red River Valley.
         undue influence of garrison diversion unit proponents
    The second major factor that has contributed to delays in the Red 
River Valley Water Supply Study and Environmental Impact Statement has 
been the repeated and continuing attempts by proponents of the Garrison 
Diversion Unit and diversion of Missouri River water to the Red River 
Valley to exert undue influence over the studies.
    The Red River Valley Water Needs Assessment that was initiated 
under the 1993 North Dakota Water Management Collaborative Process 
included participation by various stakeholder groups. However, before 
the study had been completed in August 2000, the Bureau of 
Reclamation's Area Manager, the North Dakota State Engineer and the 
Manager of the Garrison Diversion Conservancy District had, without 
informing other stakeholders, negotiated and signed a Memorandum of 
Understanding that established a three-member Study Management Team 
composed of representatives of those agencies to direct and supervise a 
feasibility level study of alternatives to meet future municipal, rural 
and industrial water needs in eastern North Dakota.
    The Dakota Water Resources Act of 2000, which was not passed until 
six months later, specifies, however, that:

          ``The Secretary of the Interior shall conduct a comprehensive 
        study of the water quality and quantity needs of the Red River 
        Valley in North Dakota and possible options for meeting those 
        needs.'' (Emphasis added) (DWRA Section 8[b][1]).

and that:

          ``In conducting the study, the Secretary, through an open and 
        public process shall solicit input from gubernatorial designees 
        from the states that may be affected by possible options to 
        meet such needs as well as designees from other federal 
        agencies with relevant expertise.'' (DWRA Section 8[b][3])

The Act also specifies that:

          ``. . . the Secretary and the State of North Dakota shall 
        jointly prepare and complete a draft environmental impact 
        statement concerning all feasible options to meet the 
        comprehensive water quality and quantity needs of the Red River 
        Valley and options for meeting those needs, including the 
        delivery of Missouri River water to the Red River Valley.'' 
        (DWRA Section 8[c][2])

    Despite the fact that Senator Dorgan, in congressional debate on 
the Dakota Water Resources Act, had noted that the bill lays out a 
process for meeting the water needs of the Red River Valley and pointed 
out specifically that:

          ``First, the Secretary of the Interior will identify these 
        needs and evaluate options for meeting them.'' (Congressional 
        Record, Senate S10534, October 13, 2000)

    The Red River Valley Water Supply Study and Environmental Impact 
Statement were initiated immediately after the Dakota Water Resources 
Act was passed under the direction and control of the same Study 
Management Team consisting of the Bureau's Area Manager, the State 
Engineer and the Manager of the Garrison Diversion Conservancy District 
that had been established by the July 2000 Memorandum of Understanding. 
Both the Garrison Diversion Conservancy District (North Dakota Century 
Code Sec. 61-24-01) and the North Dakota State Water Commission (North 
Dakota Century Code Sec. 61-01-26.1) are mandated by statute to promote 
the completion of the Garrison Diversion Unit and the delivery of 
Missouri River water to the Red River Valley.
    On April 20, 2001, Daniel P. Beard, Chief Operating Officer of the 
National Audubon Society, sent a letter to the Great Plains Regional 
Director of the Bureau (Attachment No. 1) pointing out that:

          ``To the best of our knowledge, the MOU, which predates DWRA 
        by more than 5 months, involved neither disclosure nor public 
        participation prior to or during its development. As far as we 
        know, this document never saw the `light of day' until after 
        the DWRA was enacted . . .
          The MOU presumes to create a Study Management Team (SMT) 
        comprised of one official each appointed from the GDCD, SWC, 
        and BOR. The SMT is then referred to as a `partnership' 
        implying that the traditional project proponents have two out 
        of three votes on matters deliberated by SMT. The Framework 
        [February 15, 2001, Framework for Red River Valley Water Supply 
        Study] is replete with unwarranted and excessive assignments of 
        the responsibilities of the Secretary to the SMT. Among other 
        things, the Framework states that the `MOU created a 
        partnership among the three parties to direct completion of 
        necessary studies and to oversee the preparation of reports to 
        Congress' (emphasis added). Even worse, the signors have 
        assigned themselves decision-making responsibilities. For 
        example, `The Study Management Team will be responsible for 
        overall guidance, scheduling, report concurrence (sic), 
        financial issues, and major decision-making activities on 
        difficult issues' (Framework, page 4).''. . .
          We urge that you carefully review all the documents that have 
        been entered into with respect to this work and make an 
        independent determination that they comply with all applicable 
        laws and policies, and that they will help promote impartiality 
        for all the studies to be undertaken . . .
          If there is to be an SMT, it should be clarified that the 
        responsibility for decision-making remains with the Secretary 
        not with outside parties. If there is to be an SMT, it should 
        be advisory only . . .''

    Although Mr. Beard addressed his letter to the Regional Director, 
the initial response came, not from the Bureau of Reclamation, but from 
the Manager of the Garrison Diversion Conservancy District (Attachment 
No. 2), thus further confirming the preponderant role assumed by 
Conservancy District in the Red River Valley water supply studies 
authorized by the Dakota Water Resources Act of 2000. However, Mr. 
Jamison's response did not address the fundamental issue raised by Mr. 
Beard regarding the assignment of responsibilities reserved to the 
Secretary to a Study Management Team dominated by those having a 
statutory mandate to promote completion of the Garrison Diversion Unit 
and the diversion of water from the Missouri River to the Red River 
Valley.
    In her July 23, 2001, response to Mr. Beard (Attachment No. 3), the 
Regional Director said:

          ``Some of the issues you raised are legitimate, especially 
        because the MOU was developed under the authority of the 1986 
        Garrison Diversion Unit Reformulation Act. However, as the DWRA 
        is very specific in certain provisions, the MOU may not 
        accurately reflect the intent of the Congress. Therefore, I am 
        revisiting the MOU and Framework with respect to the DWRA. 
        Ultimately, I assure you that we are committed to a full and 
        open process which invites the meaningful participation of all 
        stakeholders. I further assure you that the decision making 
        authority will remain solely with the Secretary of the Interior 
        as provided in the DWRA or other relevant statutes such as the 
        National Environmental Policy Act (NEPA). This includes both 
        process decisions, such as the appropriate application of NEPA, 
        as well as final decisions such as selecting a preferred 
        alternative for the FEIS.''

    In her August 15, 2002, letter to Mr. Beard (Attachment No. 4), the 
Regional Director reported that the Study Management Team for the Red 
River Valley Water Supply Study and Environmental Impact Statement had 
been abolished and the July 2000 Memorandum of Understanding was being 
replaced. She indicated that the Red River Valley Water Supply Study 
would instead be conducted by the Bureau, and that the Environmental 
Impact Statement would be prepared jointly by the Secretary and the 
State of North Dakota, as specified by the Dakota Water Resources Act.
    The revised Memorandum of Understanding (Attachment No. 5) deals 
only with the joint preparation by the Secretary and the State of North 
Dakota of the Environmental Impact Statement for the Red River Valley 
Water Supply Project. The revised Memorandum of Understanding states in 
Section VI. Primary Contacts that:

          ``The Governor of the State of North Dakota has authorized 
        the GDCD [Garrison Diversion Conservancy District] to be the 
        State's primary contact to serve as co-lead for North Dakota on 
        the EIS.''

    However, as is pointed out in the attached October 7, 2002, letter 
to the Bureau of Reclamation (Attachment No. 6), the Constitution of 
the State of North Dakota specifies that:

          ``The governor shall transact and supervise all necessary 
        business of the state with the United States, the other states, 
        and the officers and officials of the state.''

    As the letter notes, there is no statutory provision for the 
Garrison Diversion Conservancy District to represent the State of North 
Dakota, or for the Governor to ``transact and supervise'' business with 
the United States through the Conservancy District. The letter goes on 
to point out that State Water Commission has statutory authority to 
represent the interests of the State in dealing with the Federal 
Government, but North Dakota Century Code Sec. 23-01-01-02 explicitly 
provides that:

          ``The state department of health is the primary state 
        environmental agency.''

    On October 18, 2002, the Regional Director forwarded the letter to 
the Office of the Governor of North Dakota for a response, but the 
revised Memorandum of Understanding was signed on November 6, 2002, 
without a response having been received from the Governor addressing 
the ineligibility of the Garrison Diversion Conservancy District to 
represent the State in jointly preparing the Environmental Impact 
Statement for the Red River Valley Water Supply Project. Six weeks 
later, a response still has not been received.
    Not only does the designation of the Garrison Diversion Conservancy 
District to represent the State of North Dakota in jointly preparing 
the Environmental Impact Statement for the Red River Valley Water 
Supply Project reflect continued undue influence by proponents of the 
Garrison Diversion Unit, but the designation of an ineligible agency to 
represent the State leaves the process open to question and the 
Environmental Impact Statement it produces open to challenge, thus 
potentially resulting in further delays in completing the Red River 
Valley water studies.
                               conclusion
    The dissemination of misleading information regarding Red River 
Valley water needs by proponents of the diversion of Missouri River 
water to the Red River Valley and their persistent attempts to exert 
undue influence over studies of Red River Valley water needs not only 
undermine their credibility and raise significant questions about their 
motive, but these activities also create serious impediments to the 
completion of an objective, scientifically sound evaluation of Red 
River Valley water needs and options for meeting those needs. It is 
important, therefore, for the Subcommittee on Water and Power to 
exercise its oversight authority to assure that the Bureau of 
Reclamation conducts its studies of Red River Valley water needs in an 
open and professional manner that will assure the thorough and unbiased 
products that the Congress expects and the citizens of the Red River 
Valley deserve.

                               REFERENCES

Bureau of Reclamation. 1996. Overview of Pick-Sloan Missouri Basin 
        Program (P-SMBP) Benefits. Summary of Information contained in 
        the Corps of Engineers' Missouri River Draft Environmental 
        Impact Statement, July, 1994.
Bureau of Reclamation. 1998. Red River Valley Water Needs Assessment, 
        Phase I Part A: MR&I Appraisal Report. U.S. Department of the 
        Interior.
Bureau of Reclamation. 2000. Red River Valley Water Needs Assessment, 
        Phase II. Appraisal of Alternatives to Meet Projected 
        Shortages. U.S. Department of the Interior.
Bureau of Sport Fisheries and Wildlife. 1960. A Plan for Fish and 
        Wildlife Resources of the Oahe Reservoir, North Dakota and 
        South Dakota. Report Prepared by the Bureau of Sport Fisheries 
        and Wildlife, Missouri Basin Studies, Billings, Montana, in 
        Cooperation With the North Dakota Game and Fish Department and 
        the South Dakota Department of Game, Fish and Parks. U.S. 
        Department of the Interior, Fish and Wildlife Service, 
        Minneapolis, Minnesota.
Cole, Janell. 2001. Garrison water to Fargo: ``Closer than we've ever 
        been.'' The Jamestown Sun, July 30, p. 5.
Conrad, Kent. 2001. Victory! North Dakota Water, Vol. 9, No. 1, pp. 5-
        7.
Dorgan, Byron L. 1998. Testimony of U.S. Senator Byron L. Dorgan, House 
        Resources Committee. September 29. 5 pp.
Dorgan, Byron L., Kent Conrad and Earl Pomeroy. 1994. Letter to Michael 
        Whittington, Area Manager, Bureau of Reclamation, Bismarck, 
        North Dakota. 2 pp.
Fish and Wildlife Service. 1952. A Report on Development of Wildlife 
        and Fishery Resources for Garrison Reservoir, North Dakota. 
        U.S. Department of the Interior, Billings, Montana.
MacDonald, John. 1998. Land values rise in '97 despite dismal crop 
        year. The Jamestown Sun (Jamestown, North Dakota). May 6.
Schafer, Edward T., Kent Conrad, Byron Dorgan and Earl Pomeroy. 1993. 
        Letter to Bruce Babbitt, Secretary, U.S. Department of the 
        Interior. November 12. 12 pp.
Schmidt, Helmut. 2002. Delegation reports breakthrough in getting 
        outlet for Devils Lake. The Forum (Fargo, North Dakota). July 
        30.
U.S. Army Corps of Engineers. 2002. Draft Devils Lake North Dakota 
        Integrated Planning Report and Environmental Impact Statement. 
        St. Paul District, St. Paul Minnesota.
                                 ______
                                 
Statement of Tex G. Hall, Chairman, Mandan, Hidatsa and Arikara Nation 
                       (Three Affiliated Tribes)
    Dosha! (Hello). Thank you for the opportunity to present testimony 
today concerning ``Red River Water Needs''. As you know, I am the 
Chairman of the Three Affiliated Tribes, located in northwest North 
Dakota. I apologize to the Committee and to everyone present that I am 
unable to be here today due to prior commitments.
                              introduction
    One may ask what interest the Mandan, Hidatsa and Arikara Nation 
has in the water needs of the Red River Valley. However, anyone 
familiar with the history of North Dakota, and in particular, the 
history of the Pick-Sloan project and later, the Garrison Diversion 
project. and its relationship to the Indian tribes along the Missouri 
River, may understand our interest in this matter. Nevertheless, a bit 
of background would be helpful.
    The original goals of the Pick-Sloan project, conceived in the 
1930's, were to control flooding along the Missouri, provide for 
electricity generation, provide for irrigation and later, provide for 
additional recreational opportunities for North Dakotans. Our Tribe 
understands those goals. There are seven principal reservoirs behind 
the seven dams that make up the principal features of this project.
    Each of those reservoirs greatly affected the Indian tribes whose 
reservations and ancient homelands were along the Missouri River. As 
one of our former Chairman has put it, Carl Whitman, the dams seemed 
placed so that the maximum impact of the permanent flooding caused by 
the dams would be on the Indian reservations.
    At no other place was a Tribe more greatly affected than behind the 
Garrison Dam, which created a reservoir ironically known as Lake 
Sakakawea, in honor of the famous Lewis and Clark guide who originated 
from our Tribe. That Tribe was the Mandan, Hidatsa and Ankara Nation, 
the homeland of my people.
    Prior to the Garrison Dam being built, we still had a small part of 
what had been our homelands, along the Missouri River, our ``holy 
grandfather'' as it was known to us. The rich bottom lands along the 
river provided us wood for fuel, let us tend our animals and raise our 
crops. We were generally self sufficient.
    But that all changed forever with the Garrison Dam, which submerged 
156,000 acres of our most important asset, our land, under water. Our 
once close-knit communities, separated only by a river, which was then 
connected near Elbowwoods by a bridge, were now split apart and 
separated by as much as 120 miles. Our rich farmland and self-
sufficient lifestyle were gone forever.
    Despite how we have been affected by, and despite how much we have 
suffered from the Garrison Dam, we also understand that a secondary 
goal of the Pick-Sloan project, and one that has been fundamentally 
important to North Dakota, has been the diversion of water from the 
Missouri, the water that makes up Lake Sakakawea, to the eastern part 
of North Dakota to satisfy long-standing water shortages there. We are 
well aware of the history of the ``Garrison Diversion Project''. as it 
generally is known'' and will not repeat it here. Despite a recent 
opinion issued by the North Dakota Attorney General declaring that Lake 
Sakakawea is not within our reservation boundaries, an opinion which 
makes no sense given the history of our reservation, because we also 
depend on water from Lake Sakakawea in many ways, as will be discussed 
a bit more below, we remain vitally interested in this diversion 
effort.
    It should be emphasized that in the past, we have supported the 
Garrison Diversion Project reformulation acts as they have been enacted 
by Congress; going back at least to the 1986 Act. This has been, in 
part, because within those statutes, the rural water needs of the Three 
Affiliated Tribes, as well as other Tribes in North Dakota, have been 
provided through the authorizations for appropriations provided in 
those Acts'' most recently the Dakota Water Resources Act of 2000.
the interests of the three affiliated tribes in water from the missouri
    Our interests in the Garrison Diversion project are several:

          1. We want to ensure that in any diversion of water to the 
        eastern part of North Dakota, our ``Winters doctrine'' water 
        rights are recognized;
          2. We want to ensure that any diversion of water to the 
        eastern part of North Dakota does not unduly affect water 
        levels of Lake Sakakawea, because we depend on for our water 
        source, and because we, too, have interests in recreational 
        sites along the lake which depend, in part, on sufficient water 
        levels for their success.
          3. We are also sensitive to the needs of our Indian relatives 
        to the north, in Manitoba, who have made it clear to myself and 
        other Tribal leaders from North Dakota that they are concerned 
        about the possible effects untreated water could have on their 
        fishing, on which they rely in part for their subsistence.

    With these concerns in mind, we have not changed our support of the 
overall goals of the Garrison Diversion project, to provide water 
during times of drought to the Red River Valley. I would like to 
discuss our concerns a bit more.
1. ``Winters Doctrine'' Water Rights
    The ``Winters Doctrine'', based on a famous case decided early in 
the past century, basically states that when a water course, or river, 
goes through or alongside a reservation that has historically used 
water from that river, that Indian Tribe has paramount, or first rights 
to the water in the river. Through various additional decisions and 
Congressional statutes, Tribes may quantify those water rights, and 
must show how they will use the water to which they claim ``paramount 
rights''.
    The Three Affiliated Tribes have not sought judicial action to 
quantify their rights to the Missouri River's waters that flow through 
their reservation. But, simply because we have not quantified our 
Winters doctrine rights to the waters of the Missouri does not imply 
that those rights are not paramount when it comes to manipulation of 
the lake levels behind the dams that have so seriously impacted the 
Missouri River tribes. We have repeatedly asked that Congress recognize 
those rights as plans for the Garrison Diversion project go forward.
    One argument seems to be that because the rivers flow is so large, 
our Mandan, Hidatsa and Ankara Nation cannot possibly claim enough of 
the water of the river to have an impact on water levels, or to have an 
impact on the amount of water that is proposed to be used in the Red 
River Valley. That is a tremendously uncertain assumption to make. The 
entire river flow has once been used by the tribes to sustain their way 
of life. There exists no reason now to suggest that the entire river 
flow is still not necessary for the tribes to regain some semblance of 
an economy which supports their needs.
2. Affect on Water Levels
    A practical example of this is the recreational needs of the 
Mandan, Hidatsa and Arikara Nation. Maintaining the level of Lake 
Sakakawea at certain elevations is critical to improving recreational 
opportunities for the Tribe along the extensive part of the shoreline 
in which it has an interest. Keeping lake levels high enough for 
recreational interests to thrive is, for all intents and purposes, the 
exercise of a fundamental Winters doctrine right and becomes critically 
important during years of drought that we are now experiencing and, 
during the upcoming years of the Lewis and Clark Bicentennial 
Celebration during the years 2003-2006. Without adequate lake levels, 
the business ventures of the Tribe and its members will simply not 
realize their potential.
Recommendation
    We recognize that we cannot control drought situations, which is 
certainly one the things that the Garrison Diversion project is 
intended to remedy for the Red River Valley. But we also do not want 
our interests in this matter to be forgotten. Therefore, we urge that 
in all future planning efforts for the Garrison Diversion project that 
a representative of our Nation be included. Generally, we have had some 
representation as the legislation has gone forward through Congress. 
But now that legislation has in fact passed Congress, we believe we 
must continue to be a part of the planning effort for the completion of 
the long-awaited project, on a government-to-government basis.
3. Affect on Water Quality in Manitoba
    As I mentioned, I visited several years ago with Tribes in Manitoba 
about their concerns regarding water quality and the affect that the 
introduction of biota that are unknown to the Red River of the North. 
The Red River empties in part into a very large wetlands and lake 
system in Manitoba, and many tribes depend on the fish and other 
wildlife of that system. While these issues are not generally within 
the control of the Three Affiliated Tribes, we simply express our 
interest in making sure that the concerns that have been raised are 
satisfied to the maximum extent practicable.
                                summary
    We believe that all of the above concerns we have raised can be 
resolved satisfactorily for all parties. But to the extent that Red 
River Valley water needs will be met by diversion of water from the 
Missouri River basin, we request that we continue to be involved so 
that our interests in the protection the water in Lake Sakakawea can be 
met. We request that we be included in these continuing discussions, by 
both the State of North Dakota and the Federal government, on a 
government-to-government basis, and that we be notified when important 
meetings are held regarding how water will be diverted from Lake 
Sakakawea to the Red River Valley.
    Thank you, Mr. Chairman, for the opportunity to testify. If you 
have questions, I would pleased to submit written answers to questions 
you may submit to me in writing after this hearing to be included in 
the record.

                                    

      

</pre></body></html>
